<html>
<title> - HEARING TO CONSIDER THE NOMINATIONS OF ELLEN ENGLEMAN, RICHARD HEALING, AND MARK ROSENKER TO BE MEMBERS OF THE NATIONAL TRANSPORTATION SAFETY BOARD</title>
<body><pre>[Senate Hearing 108-423]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 108-423



HEARING TO CONSIDER THE NOMINATIONS OF ELLEN ENGLEMAN, RICHARD HEALING, 
AND MARK ROSENKER, TO BE MEMBERS OF THE NATIONAL TRANSPORTATION SAFETY 
                                 BOARD

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 27, 2003

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



91-362              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

           COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                JOHN B. BREAUX, Louisiana
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
PETER G. FITZGERALD, Illinois        RON WYDEN, Oregon
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
                                     FRANK LAUTENBERG, New Jersey

      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
               Kevin D. Kayes, Democratic Staff Director
                Gregg Elias, Democratic General Counsel


                            C O N T E N T S

                              ----------                              

                                                                   Page
Hearing held on February 27, 2003................................     1
Statement of Senator Inouye......................................    32
Statement of Senator Lautenberg..................................    33
Statement of Senator McCain......................................     1
    Prepared statement...........................................     2

                               Witnesses

Engleman, Hon. Ellen G., Administrator, Research and Special 
  Programs Administration, Department of Transportation..........     4
    Prepared statement...........................................     5
    Biographical information.....................................     7
Healing, Richard F., Director of Transportation Safety and 
  Security, Battelle Memorial Institute..........................    15
    Prepared statement...........................................    16
    Biographical information.....................................    16
Rosenker, Major General Mark V., USAFR, Director of Special 
  Projects, Transportation Security Administration...............    23
    Prepared statement...........................................    24
    Biographical information.....................................    25
Statement of Hon. Curt Weldon, U.S. Representative from 
  Pennsylvania...................................................     3

                                Appendix

Response to written questions submitted by Hon. John D. 
  Rockefeller IV to:
    Engleman, Hon. Ellen G.......................................    37
    Healing, Richard F...........................................    39
Response to written questions submitted by Hon. Ernest F. 
  Hollings to:
    Engleman, Hon. Ellen G.......................................    38
    Healing, Richard F...........................................    39
    Rosenker, Major General Mark V...............................    39
Warner, Hon. John, U.S. Senator from Virginia, prepared statement    37
Air Crash Victims Families Group, statement letter...............    41

 
                  HEARING TO CONSIDER THE NOMINATIONS
                  OF ELLEN ENGLEMAN, RICHARD HEALING,
                   AND MARK ROSENKER TO BE MEMBERS OF
                THE NATIONAL TRANSPORTATION SAFETY BOARD

                              ----------                              


                      THURSDAY, FEBRUARY 27, 2003,

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:40 a.m. in Room 
SR-253, Russell Senate Office Building, Hon. John McCain, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. I will start the hearing, and if, by chance, 
enough people show up, we will switch to the adoption of the 
rules. If not, we will wait until the next time that there is a 
vote on the floor and have a rolling vote, if that is OK with 
you.
    I am pleased to convene this hearing to consider the 
nominations of Ellen Engleman, Richard Healing, and Mark 
Rosenker to be members of the National Transportation Safety 
Board (NTSB). Please take your seats at the witness table. I am 
hopeful that the Committee and the full Senate can move these 
nominations quickly.
    The positions for which these three individuals have been 
nominated are essential to the promotion of transportation 
safety. The NTSB is respected worldwide, renowned for its 
ability to investigate transportation accidents, determine 
their probable causes, and to develop recommendations to 
prevent future accidents. While we most often associate this 
important independent agency with times of tragedy, it is 
constantly striving to advance safety in all transportation 
modes.
    I would like to take this opportunity to thank the nominees 
for being here. I know your nominations are a great honor and 
that your families are very proud. I want to welcome you all 
today to introduce any family members who are with you in the 
audience today, beginning with you, Ms. Engleman.
    Ms. Engleman. Thank you, Mr. Chairman. I am pleased to be 
here today and to introduce my mother, Gayle Engleman Johnson, 
and many family friends. My mother recently retired after 46 
years of government service, so she is my friend, mentor, and 
guiding light.
    The Chairman. Thank you, and congratulations. I know this 
is a very proud day for you.
    Mr. Healing.
    Mr. Healing. Thank you, Senator. Before I begin, I would 
like to introduce my family, my three children, who are here, 
Christopher and his wife, Alexandra, from Alexandria, Virginia, 
and my daughter, Kim, from Connecticut, who drove down 
yesterday, and my son, Paul, from San Diego, who flew in, and 
fortunately the runways were clear.
    Thank you, sir.
    The Chairman. Paul, you had better get out of town pretty 
soon. We will have to----
    [Laughter.]
    Chairman McCain [continuing]. Get this hearing done.
    Mr. Rosenker.
    Mr. Rosenker. Mr. Chairman, I would like to introduce my 
wife, Heather. She did not have a very far distance to go, sir.
    The Chairman. Good. Thank you, and congratulations again, 
Heather.
    The transportation sector in our country affects every 
facet of our economic and social life. Our citizens have come 
to expect and rely upon safe and efficient transportation 
service regardless of the mode of choice, yet travel safety is 
not realized without extensive effort by all involved. The NTSB 
plays a very critical role in promoting transportation safety, 
whether in the air or on the ground.
    I would also briefly like to point out that NTSB 
investigators are actively involved in the ongoing Space 
Shuttle Columbia investigation, and I commend the Board and its 
employees for their contributions to this very important multi-
agency endeavor. I am confident that every effort is being made 
and will continue to be made to determine the cause of the 
shuttle's accident.
    [The prepared statement of Senator McCain follows:]

                Prepared Statement of Hon. John McCain, 
                       U.S. Senator from Arizona

    I am pleased to convene this hearing to consider the nominations of 
Ellen Engleman, Richard Healing, and Mark Rosenker to be Members of the 
National Transportation Safety Board (NTSB). I am hopeful the Committee 
and the full Senate can move these nominations quickly.
    The positions for which these three individuals have been nominated 
are essential to the promotion of transportation safety. The NTSB is 
respected worldwide, renowned for its ability to investigate 
transportation accidents, determine their probable causes, and develop 
recommendations to prevent future accidents. While we most often 
associate this important independent agency with times of tragedy, it 
is constantly striving to advance safety in all transportation modes.
    I would like to take this opportunity to thank the nominees for 
being here today. I know your nomination is a great honor, and that 
your families are very proud. I want to welcome you all and invite you 
to introduce any family members who are with you in the audience today.
    The transportation sector in our country affects every facet of our 
economic and social life. Our citizens have come to expect and rely 
upon safe and efficient transportation service, regardless of the mode 
of choice. Yet, travel safety is not realized without extensive effort 
by all involved. The NTSB plays a very critical role in promoting 
transportation safety whether in the air or on the ground.
    Also, I would like to briefly point out that several NTSB 
investigators are actively involved in the ongoing Space Shuttle 
Columbia investigation, and I commend the Board and its employees for 
their contributions to this very important multi-agency endeavor. I am 
confident that every effort is being made and will continue to be made 
to determine the cause of the shuttle's accident.
    We will have a number of questions to ask each of you today and I 
look forward to hearing from you to learn more about your 
transportation safety philosophies.
    After we hear from any of my colleagues who may have opening 
comments, I will first call on Ellen Engleman, who has been nominated 
to serve both as a Board Member and as Chairman.

    The Chairman.  We will have a number of questions for each 
of you today, but I note our colleague from the House side, 
Congressman Weldon, and I wonder if Congressman Weldon would 
like to make a comment on behalf of one of the nominees.
    Thank you, Curt. You are always welcome here.

                STATEMENT OF HON. CURT WELDON, 
             U.S. REPRESENTATIVE FROM PENNSYLVANIA

    Mr. Weldon. Well, thank you, Senator and distinguished 
Members of the Committee. I did want to stop over.
    As most of you know, I have been concerned for the past 17 
years that I have been in Washington with issues involving 
safety, both in the military and in the private sector and the 
civilian community. I carry two designations in my own career 
in the area of both fire protection and in life safety, and so 
I have taken this issue seriously throughout my life.
    As you know, we formed the Congressional Fire and EMS 
Caucus, the largest caucus in the Congress, which, Senator 
McCain, you were the first co-chair of along with Al Gore, and 
I have continued to chair that largest caucus in the House and 
the Senate for the past 17 years.
    The Chairman. Maybe it is bad luck.
    [Laughter.]
    Mr. Weldon  We have focused during that entire time on ways 
to increase protection for both our civilian community and, as 
the vice Chairman of the Armed Services Committee in the House, 
in the service of our military personnel.
    Dick Healing I first met after the attack on the USS Stark. 
Dick was working for then Captain Joe Taussig, who was a World 
War II hero. We assigned him, after the attack on the Stark, to 
give us recommendations for ways to improve the safety of our 
fire protection onboard our ships. Dick was guy who did the 
bulk of the legwork, made recommendations to us.
    The House and the Senate followed up with funding. We have 
reduced significantly the amount of loss from fires on our 
naval ships directly as a result of Dick's work.
    Over the years, he has been involved in everything from 
Desert Storm, where he chaired a special panel on flammable 
liquids that could cause harm to our troops. He has been 
engaged in a number of issues. He currently works for Battelle 
Labs. But consistently throughout his career as an engineer, 
Dick Healing has been a dedicated professional working to make 
sure that men and women who travel in any possible means of 
transportation are, in fact, protected.
    He is an ideal candidate for the NTSB. He is thorough, he 
is committed, and he will seek out and get the results that we 
need to protect the public and to protect the men and women who 
serve our country.
    So I could give no higher recommendation to Dick Healing, a 
personal recommendation. He is not from Pennsylvania, 
unfortunately, but I give him my highest recommendation and 
would ask for you to consider that in your deliberations on 
these, all three of these, fine nominees.
    The Chairman. I thank you, Congressman Weldon, for taking 
the time to be here today. You are always welcome here, and we 
look forward to our annual dinner coming up soon.
    Thank you for all of your hard work.
    Mr. Weldon. I look forward to you being there.
    The Chairman. Could I just mention to my colleagues, I do 
not think we are going to get 12 people. We were in rather late 
last night, so we will try and do it the next time we have a 
vote off the floor, to adopt the rules of the Committee.
    Again, I want to welcome the nominees. We look forward to 
hearing your statements. And is there any opening comments that 
any Members would like to make?
    [No response.]
    The Chairman. If not, welcome, Ms. Engleman.

 STATEMENT OF HON. ELLEN G. ENGLEMAN, ADMINISTRATOR, RESEARCH 
             AND SPECIAL PROGRAMS ADMINISTRATION, 
                  DEPARTMENT OF TRANSPORTATION

    Ms. Engleman. Thank you, Sir. I have submitted a formal 
comment for the record. If I may, I will just make a few brief 
remarks?
    The Chairman. Your complete statement will be made part of 
the record.
    Ms. Engleman. Thank you.
    Mr. Chairman and Members of the Committee, I am truly 
honored to sit before you today as President Bush's nominee to 
serve as a member of the National Transportation Safety Board 
and also to be nominated as its Chairman. I want to thank each 
Member of the Committee in advance for their interest in the 
NTSB, as the record clearly notes your personal involvement and 
support for this fine agency.
    As you know, the NTSB's dedicated professionals are on the 
front lines of safety. Their work, their commitment ensures the 
safety of Americans and their families in all modes of travel. 
From pipelines to the transportation of hazardous materials, 
from trains and maritime, and, of course, aviation, the NTSB is 
one of the world's premier accident investigation agencies. I 
would consider it the highest privilege to serve as both a 
member and as Chairman of the NTSB, and I thank President Bush 
for his nomination, and the Members of this Committee for their 
consideration.
    Since September 2001, it has been an extraordinary honor to 
serve as the administrator of the Research and Special Programs 
Administration. I have focused my agenda on Secretary Mineta's 
strong stand on safety and President Bush's emphasis on 
performance and measurable results. So I gave my staff a goal: 
clean up our record.
    RSPA had 95 outstanding issues consisting of congressional 
mandates and recommendations from NTSB, GAO, and the Office of 
the Inspector General. In 1 year, we have cleaned up 26 of the 
NTSB recommendations that are now closed, with an additional 14 
awaiting NTSB's response, and the remaining 32 in progress.
    Why did I focus on safety and the resolution on cleaning up 
our record? It is my sincere belief that when the NTSB speaks, 
the modes must not only listen, they must act. It is 
inexcusable to allow years to pass without resolution of NTSB 
recommendations.
    The challenges of a modern technology-based society are 
immense. While 90 percent of the accidents investigated by the 
NTSB are aviation-related, the multimodal impact of increased 
safety cannot be undervalued. As the Nation seeks to address 
significant security issues, we cannot allow the focus on 
safety to be forgotten. I believe that when a person gets on a 
plane, comes to a train crossing, lives beside a pipeline, has 
their child board a school bus, or has a truck carrying 
hazardous material pass through their community, they are 
entitled to feel safe, to be safe. The envelope of trust that 
surrounds each of these activities is destroyed each time a 
fatal accident occurs. Lives are lost, families and communities 
are traumatized.
    Ladies and gentlemen of the Committee, it is my firm belief 
that safety is not an option; it is a priority. Given that the 
NTSB mission is focused on accident investigation and promoting 
transportation safety, I believe I offer a package of 
management skills, experience, and knowledge that will ensure 
mission success. I am also committed to pursuing my pilot's 
license to ensure that I understand key aviation safety issues 
to complement the aviation expertise that will reside within 
the NTSB board, and, in exchange, offer my multimodal surface 
transportation experience to enhance the board's knowledge.
    It is a privilege to now serve as the administrator for 
Research and Special Programs at the U.S. Department of 
Transportation, and I am dedicated to supporting the President 
in any role that best serves this country. If I am confirmed, I 
look forward to working with Congress and other agencies to 
increase transportation safety for the American public.
    I want to thank the Members of the Committee for your time, 
for your consideration, and I will welcome any questions or 
comments that you have.
    [The prepared statement of Ms. Engleman follows:]

 Prepared Statement of Hon. Ellen G. Engleman, Administrator, Research 
   and Special Programs Administration, Department of Transportation

    Mr. Chairman, Members of the Committee: I am honored to sit before 
you today as President Bush's nominee to serve on the Board of the 
National Transportation Safety Board and to also be nominated to serve 
as its chairman. I want to thank each member of the committee in 
advance for their interest in the NTSB as the record clearly notes your 
personal involvement and support for this fine agency.
    As you know the NTSB may not be a large agency but its 400+ 
dedicated professionals are on the front lines of safety. Their work, 
their commitment ensures the safety of Americans and their families in 
all modes of travel. From pipelines to the transportation of hazardous 
materials, from trains to maritime and of course, aviation, the NTSB 
has investigated more than 114,000 aviation accidents and over 10,000 
surface transportation accidents, becoming one of the world's premier 
accident investigation agencies. The NTSB has issued nearly 12,000 
recommendations and its reputation for impartiality has enabled the 
NTSB to improve transportation safety via the adoption of more than 80 
percent of its recommendations. I would consider it the highest 
privilege to serve as both a member and the Chairman of the NTSB and I 
thank President Bush for his nomination and the members of this 
committee for their consideration., it has been an extraordinary honor 
to serve as the Administrator of the Research and Special Programs 
Administration. In this position, I have worked with an exceptional 
staff of dedicated professionals who have successfully answered my 
challenge to improve RSPA's record and reputation and to focus on 
performance and results.
    I focused my agenda on Secretary Mineta's strong stand on safety 
and President Bush's emphasis on performance and measurable results via 
the President's Management Agenda. So I gave my staff a goal. Clean up 
our record. When I came to RSPA there were 95 outstanding issues 
consisting of Congressional mandates, NTSB recommendations, GAO 
recommendations and OIG reports for the Office of Pipeline Safety and 
the Office of Hazardous Materials Safety. Seventy-two of the 95 issues 
were NTSB recommendations. In one year, 26 of the NTSB recommendations 
are now closed with an additional 14 awaiting NTSB's response and the 
remaining 32 in progress.
    Why did I focus on safety and resolution of ``cleaning up our 
record''--including the 73 NTSB recommendations? It is my sincere 
belief that when the NTSB speaks, the modes must not only listen, they 
must act. It is inexcusable to allow years to pass without resolution 
of the NTSB recommendations.
    I believe that when a person gets on a plane, comes to a train 
crossing, lives beside a pipeline, has their child board a school bus 
or has a track of hazardous material pass through their community that 
they are entitled to feel safe, to be safe. The envelope of trust that 
surrounds each of these activities is destroyed each time a fatal 
accident occurs. Lives are lost, families and communities are 
traumatized. When public confidence in shaken, our economy is also 
affected as are the stockholders and the stakeholders in the 
transportation important sector. Ladies and Gentlemen of the committee, 
it is my firm belief that safety is not an option, it is a priority.
    The challenges of a modem technology-based society are immense. 
While 90% of the accidents investigated by the NTSB are aviation 
related, the multi-modal impact of increased safety cannot be 
undervalued. As the nation seeks to address significant security 
issues, we cannot allow the focus on safety to be forgotten.
    Training and maintenance, human fatigue, manufacturing and 
structural defects, human error, natural and man-made intervening 
factors and economic decisions are all part of the ``lesson's learned'' 
that the NTSB has created over its 35 years. These lessons are 
blueprints for safety to ensure that the chances of the next accident 
occurring are smaller each time.
    If I am confirmed to serve as Chairman of the NTSB, my leadership 
vision would incorporate the following key elements:
    <bullet> Create the vision and offer the leadership to support a 
mission of world-class performance at NTSB;
    <bullet> Ensure that safety issues work together, and not in 
competition, with security in support of the needs of the nation;
    <bullet> Ensure that the President's Management Initiatives ``Going 
for Green'' are actively implemented within the management of the NTSB 
for a fiscally responsible and efficient agency;
    <bullet> ``Clean up the Record'' and seek resolution of any open 
NTSB recommendations that have languished within the Department of 
Transportation or other agencies;
    <bullet> Further develop partnerships with the state and local 
governments and first responders for training, education and outreach 
activities; and
    <bullet> Support the NTSB Academy and its curriculum and outreach.
    Given that the NTSB mission is focused on accident investigation 
and promoting transportation safety, I believe I offer a package of 
management skills, experience and knowledge that will ensure mission 
success. My tenure as Administrator of Research and Special Programs at 
DOT and my private sector experience as a President & CEO supports the 
executive leadership role of the Chairman. I am a hands-on executive 
with extensive operational experience, accustomed to working with 
technology and legal experts in a technical environment. My 
relationships with the DOT modal administrators are strong and 
established and will support multi-modal success for the NTSB safety 
issues to be addressed. I am also committed to pursuing my private 
pilot's license to ensure that I understand key aviation safety issues 
to complement the aviation expertise that already resides within the 
NTSB Board and in exchange, offer my multi-modal surface transportation 
experience to enhance the Board's knowledge.
    It is a privilege to now serve as the Administrator for Research 
and Special Programs at the U.S. Department of Transportation, and I am 
dedicated to supporting the President in any role that best serves the 
country. If I am confirmed, I look forward to working with Congress and 
other agencies to increase transportation safety for the American 
public. I want to thank the members of the Committee for your time and 
consideration. I welcome any questions or comments that you may have.

                                 ______
                                 
          Biographical and Financial Information Requested of 
                       Department/Agency Nominees

    Instructions: Nominees are asked to provided typed answers to each 
of the following questions. It is requested that the nominee type the 
question in full before each response. Do not leave any questions 
blank. Type ``None'' or ``Not Applicable'' if a question does not apply 
to the nominee. Please return printed answers to Committee. Begin each 
section (i.e., ``A'', ``B''. etc.) on a new sheet of paper.

                      A. BIOGRAPHICAL INFORMATION

    1. Name: (Include any former names or nicknames used.) Ellen Gayle 
Engleman
    2. Position to which nominated: Member--National Transportation 
Safety Board; Chairman--National Transportation Safety Board
    3. Date of nomination: 14 February 2005,
    4. Address: (Information not released to the public.)
    5. Date and place of birth: Sept. 21, 1959, Beech Grove, IN.
    6. Marital status: (Include maiden name of wife or husband's name.) 
Single
    7. Names and ages of children: (Include stepchildren and children 
from previous marriages.) None
    8. Education: (List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.) John F. 
Kennedy School of Government, Harvard University, 1992-1993, Master of 
Public Administration, 1993; Indiana University School of Law, 1984-
1987, Juris Doctorate, 1987; Indiana University, 1979-1983, Bachelor of 
Arts, 1983
    9. Employment record: (List all jobs held since college, including 
the title or description of job, name of employer, location of work, 
and dates of employment.)
    Administrator, Research and Special Programs Administration, 
Department of Transportation. Serve as agency head of RSPA, reporting 
to Secretary of Transportation Norman Y. Mineta. RSPA is responsible 
for safety regulatory authority over the transportation of hazardous 
materials via the Office of Hazardous Materials Safety; responsible for 
safety regulatory authority over the nations interstate pipeline system 
for oil, natural gas, hydrogen and aviation fuel via the Office of 
Pipeline Safety; responsible for assuring that the national 
transportation system is viable during times of natural disaster or 
other incidents via the Office of Emergency Transportation and the 
Crisis Management Center; responsible for oversight over two fee-for-
service entities--the Volpe Transportation Research Center in 
Massachusetts and the Transportation Safety Institute in Oklahoma and 
responsible for supporting intermodal research and coordination via the 
office of Innovation, Research and Education. September 2001 to 
present. Office located in Washington, D.C.
    President & CEO, Electricore, Inc. President and Chief executive 
officer for non-profit public/private research and development 
consortium dedicated to advanced transportation and energy technologies 
with $160 million in total R & D contracts. Office located in 
Indianapolis, Indiana, 1993 to 2001.
    Director, Corporate and Government Affairs, Direct Relief 
International Responsible for corporate and government relations for 
nonprofit international medical and disaster relief organization. 
Located in Santa Barbara, California, 1993-1994.
    Public Affairs, Corporate Communications Manager, GTE North, Inc. 
Responsible for corporate communications, public affairs and government 
affairs for ten-state regional headquarters for GTE Telecommunications 
company. Office headquartered in Westfield, Indiana, 1989-1992.
    Public Affairs, Governmental Affairs Executive, GTE North, Inc. 
Responsible for initial review and analysis of proposed legislation for 
ten states. Developed strategic plans and corporate responsive 
positions, coordinated lobbying efforts in support of GTE North 
telecommunications and business objectives in legislative arena for ten 
states. Office headquartered in Westfield, Indiana, 1987-1989.
    Legislative Analyst, Indiana Judicial Study Commission, State of 
Indiana. Legislative Analyst for State of Indiana, responsible for 
studies of state courts to determine necessity for new court creation. 
Office located state House, Indianapolis, Indians 1985-1987.
    Law Clerk, Marion county Prosecutor's Office, State of Indiana. Law 
Clerk for Marion Country Prosecutor Stephen Goldsmith, responsible for 
legal research and other assignments. Office located in City County 
Building, Indianapolis, Indiana, 1985.
    Development Associate for the Indianapolis Symphony Orchestra. 
Responsible for fun-raising support to development director. Office 
located in Indianapolis, 1984.
    Sales Manager, L.S. Ayres and Company. Sales manager for $1,000,000 
home store area at Glenbrook store, located in Indianapolis, Indiana 
1983.
    10. Government experience: (List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.)
    Congressional Fellow, office of Senator Richard G. Lugar, U.S. 
Senate, 1992 U.S. Navy Reserve Officer, commissioned in September 1999 
to present.
    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.)
    President & CEO, Electricore Inc. Corporate Officer, 1999-2001. 
(resigned June 2001) Board of Directors, Direct Relief International 
1997-2001, (resigned June 2001) Board of Directors, Vitamin Angel 
Alliance, 1999-2001, (resigned June 2001)
    12. Memberships: (List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.)
    Current Memberships:
    Columbia Club, Indianapolis, Indiana
    Past Memberships: Indianapolis Opera Guild Santa Barbara Grand 
Opera Association Indianapolis Symphony North Group Public Relations 
Society of America Indianapolis Committee on Foreign Relations Junior 
League of Indianapolis
    Indianapolis Shakespeare Festival Indianapolis Phoenix Theater 
Kiwanis International
    13. Political affiliations and activities:
    (a) List all offices with a political parry which you have held or 
any public office for which you have been a candidate.
    None
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years.
    General campaign support for: Kerns for Congress, 2000 Indiana 
State Republican committee, general support for 2000 election Richard 
G. Lugar for President, 1995
    Lugar Senate Race, 1994 Dan Quayle, US Senate, 1980 Republicans for 
Indiana, member of executive board 1992-1992 10 district Congressional 
Races, 1984, 1990, 1992
    Marion Country Prosecutor Race, 1986
    Sue Anne Gilroy, Mayoral race, Indianapolis Goldsmith Governor's 
Race,
    Indianapolis County Council Republican support, 1986, 1990 William 
Hudnut mayoral race for Indianapolis, 1986 Victory '90 state 
legislative race support, 1991-92.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.
    1996 Richard G. Lugar Presidential Campaign $1,000; 2000 
Congressional Campaign for Brian Kerns, $1,000
    14. Honors and awards: (List all scholarships, fellowships, 
honorary degrees, honorary society Memberships, military medals and any 
other special recognitions for outstanding service or achievements.)
    ``Top Forty under 40'' Indianapolis Business Journal, 1997. Richard 
G. Lugar Excellence in Public Service Series, 1992. Stanley K. Lacy 
Executive Leadership Series, Class XII, 1987 Columbia Club Chairman's 
Recognition Award for Exemplary Service, 1985.
    15. Published writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.)
    None.
    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated.
    See attached.
    17. Selection: (a) Do you know why you were selected for the 
position to which you have been nominated by the President?
    It has been an honor to serve as President Bush's Administrator for 
Research and Special Programs Administration at the Department of 
Transportation. I believe I was chosen for the nomination for the 
position of Board Member and Chairman of the National Transportation 
Safety Board due to my recent experience in serving as RSPA 
Administrator combined with my previous private sector experience in 
corporate management and public affairs. As RSPA administrator I have 
had the privilege to serve as agency head for an organization that is 
dedicated overall to public safety by ensuring the safe transportation 
of approximately 800,000 daily shipments of hazardous materials; the 
safety of America's energy infrastructure of 2.2 million miles of 
liquid and gas pipelines; and emergency transportation in times of 
civil or natural disasters.
    Under the leadership of Secretary Norman Y. Mineta, my mission at 
RSPA has been focused on the Department of Transportation's goals of 
safety/security and supports this goal through research and research 
coordination, development, education, training, regulations and 
enforcement activities in the following offices: Office of Pipeline 
Safety, Office of Hazardous Materials Safety, Office of Emergency 
Transportation, Office of Innovation, Research and Education, the Volpe 
National Transportation Center and the Transportation Safety Institute.
    During my tenure at RSPA, I have successfully directed the 
organization to increase its efficiency and effectiveness in its safety 
mission accomplishing the following:
    Successfully removing the Office of Pipeline Safety from the NTSB 
``most wanted'' list for the first time in 12 years through an 
aggressive program to resolve unfinished responses to NTSB 
recommendations;
    Significantly increased safety enforcement actions for both the 
Office of Pipeline Safety and the Office of Hazardous Material Safety;
    Developing the Crisis Management Center into a 24/7operation to 
support the Office of Emergency Transportation and the Secretary of 
Transportation;
    Aggressively supporting the President Bush's Management Agenda in 
all areas of RSPA.
    My previous experience includes a broad base of private sector and 
other experience that I have drawn on in order to serve the President. 
Previously I served as president and chief executive officer of 
Electricore, Inc., an Indiana-based non-profit consortium for research 
and development of advanced transportation and energy technologies 
through federal private/public partnerships. Over six years, I led the 
consortium's expansion to participation by major U.S. automotive 
manufacturers, large and small businesses in 17 states and over 25 
universities, and to federal R&D partnerships of $160 million involving 
more than 70 projects.
    I also served as both Director of Corporate and Government Affairs 
at Direct Relief International, the nation's oldest non-sectarian 
medical relief agency and as a member of the Board of Directors. My 
work increased in-kind medical donations by nearly 100%, and resulted 
in successful medical relief programs in more than 100 countries. I was 
also co-founder of the Vitamin Angel Alliance, a non-profit whose 
programs address nutritional needs of women and children on four 
continents.
    I have served as governmental affairs executive for GTE North, 
Inc., with responsibilities for federal and state telecommunications 
public policy and corporate communications in a ten-state region from 
1987 to 1992 and served as a Congressional Fellow in the office of 
Senator Richard G. Lugar and as a personal assistant to former 
Secretary of Labor Lynn Martin.
    (b) What in your background or employment experience do you believe 
affirmatively qualifies you for this particular appointment?
    I believe that my multi-faceted background of government, private 
sector and non-profit experience provides me with excellent management 
skills, the capability to successfully assume leadership roles and 
responsibilities and the dedication to develop a vision that meets both 
short-term objectives and long-term solutions. I have developed an 
understanding and working knowledge of each of the modes within the 
Department of Transportation, built strong relationships and endeavored 
to focus on the safety mission of the department. This knowledge base 
will allow me to successfully negotiate oversight responsibilities that 
the National Transportation Safety Board has in its independent role 
with the Department of Transportation. I have a successful record in 
working with the NTSB to ``clean up the record'' of past . NTSB 
recommendations that were open within RSPA. I understand and support 
the importance of the role in NTSB has helping to improve 
transportation safety.
    Based on my experience at RSPA, I offer a perspective of multi-
modal interests that fall under the auspices of the NTSB--rail, 
maritime, pipelines, hazardous material transportation. I believe my 
experience, coupled with the expertise of the NTSB staff and fellow 
Board members will ensure that a full multi-modal emphasis on safety 
will result.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

    1. Will you sever all connections with your present employers, 
business firms, business associations, or business organizations if you 
are confirmed by the Senate?
    Yes.
    2. Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain.
    No.
    3. Do you have any plans, commitments, or agreements after 
completing government service to resume employment, affiliation, or 
practice with your previous employer, business firm, association, or 
organization?
    No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service?
    No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable?
    Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers.
    None. See SF 278, Schedule C, Part II.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    No unresolved issues. Please refer to the February 14, 2004 letter 
from the Designated Agency Ethics Official (DAEO) of the National 
Transportation safety Board. (NTSB)
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated?
    No unresolved issues. Please refer to the February 14, 2004 letter 
from the Designated Agency Ethics Official (DAEO) of the NTSB.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    I have testified before Congress on behalf of the Research and 
Special Programs Administration and our role and responsibilities at 
the Department of Transportation.
    During my employment at Electricore, Inc., (1994-2001), I acted in 
concert with fellow consortia members of the Advanced Vehicle Program 
to support this program which was funded under the Defense Advanced 
Research Projects Agency and the Department of Transportation.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)
    Please refer to the February 14, 2003 letter from the DAEO of the 
NTSB and my Ethics Agreement which is also dated February 14, 2003:
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position?
    Yes.

                            D. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain.
    No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than for a minor traffic offense? If so, please explain.
    I am aware that, during my tenure as RSPA Administrator, the DOT 
Office of Inspector General (OIG), received anonymous ``hotline'' 
complaints concerning actions taken in my capacity as Administrator. I 
was informed by the IG that these matters were investigated and were 
found to be without substantiation. The IG advised me it has closed the 
files on these issues.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency procee+ing or 
civil litigation? If so, please explain.
    No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain.
    No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    None.

                     E. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees?
    Yes, to the best of my ability.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures?
    Yes, to the best of my ability.
    3. Will you cooperate in providing the committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee?
    Yes, to the best of my ability.
    4. Please explain how if confirmed, you will review regulations 
issued by youfdepartment/agency, and work closely with Congress, to 
ensure that such regulations comply with-the spirit of the laws passed 
by Congress.
    I will ensure that all rules issued by the NTSB comply with the 
spirit of the laws passed by Congress.
    5. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so?
    Yes, to the best of my ability.

                  F. GENERAL QUALIFICATIONS AND VIEWS

    1. How does your previous professional experiences and education 
qualify you for the position for which you have been nominated?
    I have a unique professional background with nearly 20 years of 
experience in private sector management, public affairs (a combination 
of law, public; policy and governmental relations) and non-profit 
organizations. I have worked in local, state and federal government. I 
have served as a President & CEO as well as an agency head in the 
federal government. My ability to communicate, coordinate, supervise, 
manage personnel, budgets and programs and assume leadership 
responsibility will all be utilized in order to carry out the 
responsibilities of the Chairman of the National Transportation Safety 
Board.
    2. Why do you wish to serve in the position for which you have been 
nominated?
    First and foremost, it is privilege to serve. This honor is one 
that will be carried out to the best of my ability with total 
dedication to the mission of the NTSB, to the President and to the 
country.
    Secondly, I believe that the role of the Chairman of The National 
Transportation Safety Board requires the ability to assume leadership, 
provide mission focus and responsibly manage the agency. I have 
demonstrated these skills in my past positions and will use all my 
previous experience to be support the NTTSB mission.
    As a professional communicator I can serve the needs of the NTSB as 
spokesperson during times of crisis and investigations as well as 
represent the agency before Congress and the public. I will continue to 
support the message of safety and educational outreach. As an attorney 
I offer support and understanding of the legal authorities and 
responsibilities of the NTSB and its safety and oversight mission. As 
the current head of a transportation mode at the US Department of 
Transportation, I understand and support the role and responsibility of 
safety within all the modes, have focused on recommendations of the 
NTSB within RSPA and have developed key relationships within the 
department to assure that multi-modal safety focus will be addressed 
and emphasized at the NTSB. I have successfully managed RSPA, 
supporting the President's Management Agenda, meeting deadlines and 
goals, exercised financial responsibility and responsibly managed 
almost 1000 employees. As one experienced with disaster management, 
having also worked with non.-profits and NGOs and in entrepreneurial 
scenarios, I believe I will successfully oversee NTSB's role in 
accident investigations, successfully work with the first responder 
community and state and local partnerships and also assist in the 
growth of the new NTSB Academy.
    3. What goals have you established for your first two years in this 
position, if confirmed?
    I believe it would be premature to establish long-term goals until 
after I am confirmed to the position of Chairman and have the 
opportunity to review the Board's current and upcoming issues with 
staff and the other Board members. I do believe that the Board's 
strategic plan and goals should be supported to the best of my ability 
and see these as a staging ground for future success. This being said, 
I believe that there are focus areas that should be considered in 
developing goals for the NTSB. These include:
    Review and focus on resolution of all outstanding NTSB 
recommendations that were issued prior to 1999 to support safety goals 
and efficiency;
    Supporting the successful development of the new NTSB Safety 
Academy;
    Ensuring that SAFETY is the priority of the agency, ensuring that 
NTSB's responsibilities in accident investigation are fulfilled;
    Efficient and effective management of the personnel and resources 
of the NTSB;
    Successful development of strong communication and outreach between 
the NTSB and its stakeholders, with Congress and with state and local 
partners.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills?
    I believe that all professionals can improve their capability and 
ability to learn, to manage, to develop professionally and personally. 
As such I know that I will face new challenges in my role as the 
Chairman of the NTSB. I am willing to learn and listen and to dedicate 
that which I do know through my professional career and education to do 
my best, each and everyday. As with any new position, I will seek out 
additional information and detailed knowledge of key issues from NTSB 
senior staff and fellow Board members. I would also ask adminfstration 
officials, the Congress and key transportation constituents and 
stakeholders to share their opinions and views to support my education 
and my understanding of the issues facing the NTSB. Lastly, while I am 
not an aviation expert or pilot. I will look to the expertise of the 
NTSB staff and fellow board members to support my knowledge and 
understanding of aviation safety issues. I will also initiate personal 
study to better understand aviation study, including aviation ground 
school and/or a private pilot's license.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when society's problems 
should be left to the private sector, and what standards should be used 
to determine when a government program is no longer necessary.
    I believe government is an entity established by the people and for 
the people. Government should be of service and heed to the will of the 
people. It should not be dictatorial or oppressive. Government's role 
is to protect the people of the United States and serve their needs as 
defined under the Constitution and laws of the United States. The 
private sector is the lead in many facets of modern life, specifically 
in its role to develop and support the economic health of the nation. 
Government programs should be focused with. specific goals and 
objectives, anticipated timetables, clear definition and clear 
measurements of success. When these objectives are accomplished or if 
the original need is met or not longer viable, then government programs 
should be vacated.
    6. Describe the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated.
    The National Transportation Safety Board is an independent Federal 
agency charged by Congress with investigating every civil aviation 
accident in the United States and significant accidents in the other 
modes of transportation--railroad, highway, marine and pipeline--and 
issuing safety recommendations aimed at preventing future accidents. 
The Safety Board determines the probable cause of:
    <bullet> All U.S. civil aviation accidents and certain public-use 
aircraft accidents;
    <bullet> Selected highway accidents;
    <bullet> Railroad accidents involving passenger trains or any train 
accident that results in at least one fatality or major property 
damage;
    <bullet> Major marine accidents and any marine accident involving a 
public and a nonpublic vessel;
    <bullet> Pipeline accidents involving a fatality or substantial 
property damage;
    <bullet> Releases of hazardous materials in all forms of 
transportation; and
    <bullet> Selected transportation accidents that involve problems of 
a recurring nature.
    The NTSB is responsible for maintaining the government's database 
of civil aviation accidents and also conducts special studies of 
transportation safety issues of national significance. The NTSB 
provides investigators to serve as U.S. Accredited Representatives as 
specified in international treaties for aviation accidents overseas 
involving U.S. registered aircraft, or involving aircraft or major 
components of U.S. manufacture. The NTSB also serves as the ``court of 
appeals'' for any airman, mechanic or mariner whenever certificate 
action is taken by the Federal Aviation Administration or the U.S. 
Coast Guard Commandant, or when civil penalties are assessed by the 
FAA.
    7. What do you believe to be the top three challenges facing the 
department/agency and why?
    a. Ensuring that the focus on transportation safety is not 
diminished while the concurrent focus on transportation security is 
developed and implemented.
    b. Ensuring that the role and the responsibility of the NTSB is 
carried out successfully, efficiently and effectively
    c. Ensuring that all aspects of the management of the NTSB--
including programs, personnel, investigations, and the administrative 
law docket is managed efficiently and is fiscal responsible.
    8. In reference to question number six, what factors in your 
opinion have kept the department/agency from achieving its missions 
over the past several years?
    I believe that the NTSB has generally achieved success in its 
overall mission. Since its inception in 1967, the NTSB has investigated 
more than 114,000 aviation accidents and over 10,000 surface 
transportation accidents and has become one of the world's premier 
accident investigation. The NTSB has issued more than 11,600 
recommendations in all transportation modes to more than 2,200 
recipients. Since 1990, the NTSB has highlighted many issues on a list 
of safety improvements. The reputation for impartiality and 
thoroughness of the NTSB has enabled this agency to improve 
transportation safety with that more than 80 percent of its 
recommendations having been adopted without regulatory or enforcement 
powers. Many safety features currently incorporated into airplanes, 
automobiles, trains, pipelines and marine vessels had their genesis in 
NTSB recommendations. That being said, I believe that it is prudent to 
suggest that overall management of any federal agency can be improved 
through continued focus on mission, through fiscal efficiency and 
through continued development of key relationships with stakeholders, 
partners and constituencies.
    9. Who are the stakeholders in the work of this department/agency?
    <bullet> The American people
    <bullet> Congress
    <bullet> State and local first responders, law enforcement and 
medical personnel and members of the disaster relief community
    <bullet> The employees of the NTSB
    <bullet> Representatives and members of all modes of 
transportation, including transportation vehicle manufacturers, owner/
operators, maintenance, training, suppliers, employees, passengers, and 
the insurance industry.
    10. What is the proper relationship between the position to which 
you have'been nominated, and the stakeholders identified in question 
number nine?
    Independence and autonomy over the NTSB mission coupled with open 
communication and interaction with ALL stakeholders.
    11. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices.
    (a) What do you believe are your responsibilities, if confirmed, to 
ensure that your department/agency has proper management and accounting 
controls?
    Although the Chief Financial Officers Act does not apply to the 
NTSB, under the National Transportation Safety Board Amendments Act of 
20000, Section 10 of Public Law 106-424 requires that an NTSB Chief 
Financial Officer be designated. It is my understanding that the CFO 
reports to the Chairman on financial management and budget execution; 
reviews the fees, rents and other charges imposed by the Board for 
services and value provided; suggests appropriate revisions to those 
charges to reflect costs incurred by the Board in providing services 
and things of value and directs, manages and provides policy guidance 
and oversight on financial management and property and inventory 
control.
    (b) What experience do you have in managing a large organization?
    In my current position in government I manage an agency of almost 
1000 FTE employees with a budget of almost $150 million. I have served 
as president and CEO of non-profit organization, managing over. 70 
significant projects under government contracts totaling over $160 
million..
    12. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals.
    (a.) What benefits, if any, do you see in identifying performance 
goals and reporting on progress in achieving those goals?
    I strongly support the goals and requirements of the Government 
Performance and Results Act. This legislation requires the development 
of measurable program targets and thus ensures that the mission and 
vision of the agency are developed. I believe that a strategic plan 
should be carefully crafted and responsibly implemented as the basis 
for all successful management. This is good business practice, 
providing planning, focus and accountability. Appropriately 
implemented, this will support agency managers in evaluating current 
resources and provides a plan to measure current and future success.
    (b.) What steps should Congress consider taking when a department/
agency fails to achieve its performance goals? Should these steps 
include the elimination, privatization, downsizing, or consolidation of 
departments and/or programs?
    Congress has a right to anticipate and expect that an Agency will 
meet its stated goals and core performance objectives. As an 
independent: Agency, Congress provides oversight of the Board. I will 
work closely with both authorizing and appropriating committees and 
wish to be aware of any Congressional concerns about the NTSB's 
performance. While I expect that the integrity and high performance 
standards of the NTSB will continue, when or if such concerns are 
expressed, I am committed to thoroughly investigating the issue(s) and 
to work with Congress to improve the situation. c. What performance 
goals do you believe should be applicable to your personal performance, 
if confirmed?
    Honesty, integrity, commitment, ethical behavior and perseverance 
are the core values and performance goals that form my responsibilities 
as RSPA Administrator and are the basis of my service as Chairman of 
the NTSB. In addition, I hope to offer measurable results via improved 
efficiency, effectiveness, and awareness, and responsiveness to all 
stakeholders.
    My role as Chairman of the NTSB would be to listen, learn, 
communicate, and partner in support of efforts for mutual benefit among 
the identified stakeholders. It would be my responsibility to build 
bridges of communication, enhance relationships, and fulfill my 
official responsibilities and duties in a responsible and honorable 
manner.
    13. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you?
    I believe that we work as individuals but are most effective when 
we can come together as a team. I believe in rewarding individual 
performance, supporting individual professional growth and establishing 
clear direction, goals and advertised rewards and consequences. In 
short, I believe in open and honest communication with respect to the 
individual, his work efforts and ethic. I believe in leading by 
example, and would provide motivation and enthusiasm and hold myself 
accountable for failures. I am not aware of having an employee 
complaint brought against me as supervisor or fellow employee.
    14. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please explain.
    If confirmed, I will work as closely and regularly with Congress as 
is possible. I have Worked successfully with individual congressional 
offices, Authorizing and Appropriations committees and with federal 
agencies.
    15. No question 15 provided on form from committee.
    16. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency.
    While the NTSB does not have its own Inspector General, under 
section 12 of the Act, the DOT IG has authority to review the Board's 
financial management, property management and business operations. I 
believe that this limited IG review will support accountability and 
will work with the IG regarding any current issues or in future 
management reviews. I currently have a constructive and candid 
relationship with the DOT IG and anticipate that our communication and 
interaction will be open and cooperative while maintaining the 
statutory independence of the NTSB.
    17. In the areas under the department/agency's jurisdiction to 
which you have been nominated, what legislative action(s) should 
Congress consider as priorities? Please state your personal views.
    I look forward to discussing safety prioritf with Congress and the 
Administration and support safety initiatives that support the nation's 
overall concern about reduction of highway accidents and traffic 
safety. I will keep Congress advised of the safety issues before the 
Board.
    18. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending in an open 
manner through a set of fair and objective established criteria? If 
yes, please explain what steps you intend to take and a time frame for 
their implementation. If not, please explain why.
    While the NTSB does not allocate discretionary spending as other 
funding agencies do, I will focus on allocating NTSB resources to be 
consistent with the Agency mission. If changes are needed, they will be 
made based on an open, impartial manner consistent with the national 
safety priorities.
    The Chairman. Thank you, Ms. Engleman.
    Mr. Healing.

  STATEMENT OF RICHARD F. HEALING, DIRECTOR OF TRANSPORTATION 
        SAFETY AND SECURITY, BATTELLE MEMORIAL INSTITUTE

    Mr. Healing. Mr. Chairman, Members of the Committee, I am 
deeply honored that President Bush has nominated me to become a 
member of the National Transportation Safety Board, and I 
appreciate and thank the Committee for allowing me to appear 
before you today as you consider confirmation of my nomination.
    I am humbled by the prospect of serving our country as a 
board member of the NTSB since I believe there is no higher 
honor or greater opportunity for a safety professional to make 
a difference in public service than to hold a position of trust 
in an organization dedicated to the safety of our 
transportation system and the people who rely on it.
    For more than 35 years, the work of the board has made our 
Nation's transportation system safer, even as that system has 
expanded in a period of rapid growth, increasing complexity, 
and technological advances. Many of the board's 
recommendations, once implemented, have resulted in significant 
reductions in loss of life and injuries in transportation 
accidents.
    The impact of these important improvements in 
transportation safety reaches beyond the transportation system. 
They also benefit the overall economic health of our Nation and 
the quality of life for all who live here.
    During the nearly 18 years that I directed the Navy's 
Office of Operational Safety and Survivability, I learned to 
use a vast combination of resources and skills to create the 
most responsive and effective path to achieving our goals.
    And during my more than 29 years of active and reserve duty 
with the United States Coast Guard, I learned the important 
role that leadership plays in setting goals and creating an 
environment in which teams can achieve them. In my current 
career, I have learned about exciting and sophisticated 
research and technology concepts that help me better understand 
both the challenges and solutions for transportation systems in 
the future.
    If confirmed, I look forward to working closely with 
Members of the Committee and the Committee staff, with the 
experts on the NTSB staff, and with other government agencies, 
industry, and academia to make our transportation system safer.
    Like past and present board members who have served the 
public interest so well, I will bring energy and focus to 
important programs, such as the most wanted list of safety 
improvements, as well as to the other duties assigned to board 
members. In concert with the other members, I will use my 
knowledge and experience to proactively identify safety 
performance trends in order to prevent accidents that may never 
have occurred before, to work as a team, to see that board 
recommendations are implemented across all modes of 
transportation, and to eliminate the backlog of active 
recommendations which require close coordination with the 
States. In addition, I am a strong believer in education and 
training and will work closely with the NTSB Academy to ensure 
its success.
    I thank you all for your support of the NTSB and for this 
opportunity to appear before you today. I look forward to your 
questions.
    [The prepared statement of Mr. Healing follows:]

 Prepared Statement of Richard F. Healing, Director of Transportation 
            Safety and Security, Battelle Memorial Institute

    I am deeply honored that President Bush has nominated me to become 
a Member of the National Transportation Safety Board; and I appreciate 
and thank the Committee for allowing me to appear before you today as 
you consider confirmation of my nomination. I am humbled by the 
prospect of serving our country as a Board Member of the NTSB, since I 
believe that there is no higher honor or greater opportunity for a 
safety professional to make a difference in public service than to hold 
a position of trust in an organization dedicated to the safety of our 
transportation system and the people who rely on it.
    For more than 35 years, the work of the Board has made the Nation's 
transportation system safer, even as it has expanded in a period of 
rapid growth, increasing complexity, and technological advances. Many 
of the Board's recommendations, once implemented, have resulted in 
significant reductions in loss of life and injuries in transportation 
accidents. The impact of these important improvements in transportation 
safety reaches far beyond the transportation system; they also benefit 
the overall economic health of our nation and the quality of life of 
all who live here.
    During the nearly 18 years that I directed the Navy's office for 
operational safety and survivability, I learned to use a vast 
combination of resources and skills to create the most responsive and 
effective path to achieving our goals. And, during my more than 29 
years of active and reserve duty with the United States Coast Guard, I 
learned the important role that leadership plays in setting goals and 
creating an environment in which teams can achieve them. In my current 
career, I have learned about exciting and sophisticated research and 
technology concepts that help me better understand both challenges and 
solutions for transportation systems in the future. If confirmed, I 
look forward to working closely with Members of the Committee and the 
Committee staff, with the experts on the NTSB staff, with other 
government agencies, industry and academia to make our transportation 
systems safer.
    Like past and present Board Members who have served the public 
interest so well, I will bring energy and focus to important programs 
such as ``The Most Wanted'' list of safety improvements, as well as to 
the other duties assigned to Board Members. In concert with the other 
Members, I will use my knowledge and experience to pro-actively 
identify safety performance trends in order to prevent accidents that 
may never have occurred before, to work as a team to see that Board 
recommendations are implemented across all modes of transportation, and 
to eliminate the backlog of active recommendations which require close 
coordination with the states. In addition, I am a strong believer in 
education and training, and will work closely with the NTSB Academy to 
ensure its success.
    I thank you all for your support of the NTSB and for this 
opportunity to appear before you today. I look forward to your 
questions.
                                 ______
                                 
          Biographical and Financial Information Requested of 
                       Board/Commission Nominees

                      A. BIOGRAPHICAL INFORMATION

    1. Name (Include any former names or nick names used.) Richard 
Frank Healing
    ``Dick''
    2. Position to which nominated: Member, National Transportation 
Safety Board
    3. Date of nomination: July 11, 2002
    4. Address: (Information not released to the public.)
    5. Date and place of birth: July 17, 1941; Bridgeport, CT.
    6. Marital status: (Include maiden name of wife or husband's name.) 
Married; Darlene Faye Pavol
    7. Names and ages of children: (Include stepchildren and children 
from previous marriages.) Kimberly Shanon Healing, 34; Christopher 
Scott Healing, 32; Paul Michael Healing, 32
    8. Education: (List secondary and higher education institutions, 
dates attended, degree received and date degree granted.)
    Fairfield College Preparatory School, Fairfield, CT; Diploma, 1959 
United States Coast Guard Academy 1959-1962 (Transferred) Worcester 
Polytechnic Institute, Massachusetts B.S.M.E., 1964 Graduate level 
courses: University of Bridgeport, CT 1968-1974 Bridgeport Engineering 
Institute, CT 1973-1974 Georgetown University, D.C. 1984
    Harvard University, MA (S.E.F.1991)
    9. Employment record: (List all jobs held since college, including 
the title or description of job, name of employer, location of work, 
and dates of employment:) Engineer-In-Training, Farrel Corp, Ansonia, 
CT 1964 (Jun-Sep)
    Commissioned Officer, US Coast Guard; Miami FL, Viet Nam; Sep 64-
Dec 67 E.I.T. and Sales Engineer, Farrel Corp, Ansonia, CT; Jan 68-Jun 
71 Engineer-CEO; Healing Mechanical Ltd.; Fairfield, CT; Jun 71-Dec 81 
CEO, Engr &Sales; Fairfield Precision Ind.; Fairfield, CT; Dec 81-Jan 
83 Spec. Asst. to ASN (M&RA); Navy Dept.; Washington, DC; Jan 83-Sep 85 
Director, Safety & Survivability; Navy Dept.; Washington, DC; Dec 85-
Feb 02 Director, Transportation Safety/Security; Battelle; Washington, 
DC. Mar 02-Pres.
    10. Government experience: (List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.)
    None.
    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.)
    Advisory Board; Masters Program-Aviation Safety; Parks College, St. 
Louis Univ. Advisory Board; Center for Risk Management; Haas School; UC 
Berkeley (97-98) Corporate Officer-Healing Mechanical Ltd (Listed 
above)
    Corporate Officer-Fairfield Precision Ltd (Listed above)
    12. Memberships: (List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.)
    Member, Flight Safety Foundation *
    Member, SAE Aerospace International
    Member, AHS (American Helicopter Society)
    Member, Navy League
    Member, NHA (Naval Helicopter Association) *
    Member, SAFE International *
    Life Member, Reserve Officers Association *
    President DC Department, Reserve Officers Association
    National Councilman, Reserve Officers Association
    Member, Military Officers Association of America *
    Member, Naval Reserve Association
    Life Member, Republican National Committee *
    Member, National Fire Protection Association
    Member, Defense Fire Protection Association *
    Associate, CFSI (Congressional Fire Services Institute) *
    Member, American Legion
    Member, Aero Club of Washington (DC) *
    Member, National Aeronautic Association (NAA) *
    Navy Mutual Aid Association, Member, since 1965 *
    Member, United States Naval Institute *
    Plank Owner, U.S. Navy Memorial
    Member, American Association of Retired Persons (AARP) *
* Active membership
    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.
    Republican National Committee--$750 on 12/20/2001
    14. Honors and awards: (List all scholarships, fellowships, 
honorary degrees, honorary society memberships, military medals and any 
other special recognitions for outstanding service or achievements.)
    <bullet> Navy Distinguished Civilian Service Medal
    <bullet> Navy Superior Public Service Medal
    <bullet> Defense Superior Service Medal
    <bullet> Navy Meritorious Service Medal
    <bullet> Commandant Letter of Commendation Combat Action Ribbon
    <bullet> Joint Meritorious Unit Award
    <bullet> Navy Unit Commendation
    <bullet> Coast Guard Meritorious Unit Commendation
    <bullet> Navy Meritorious Unit Commendation
    <bullet> National Defense Service Medal
    <bullet> Vietnam Service Medal
    <bullet> Armed Forces Reserve Medal (20 Yr)
    <bullet> RVN Gallantry Cross Unit Citation
    <bullet> RVN Campaign Medal
    <bullet> Rifle Marksmanship Medal (``E'')
    <bullet> Pistol Marksmanship Medal (``E'')
    <bullet> Aviation Week and Space Technology ``Laurel''
    <bullet> SAFE International--General Spruance Award
    <bullet> Cash Award--Special Act (1997)
    <bullet> Senior Executive Fellow--Harvard University 1991
    <bullet> Presidential Exchange Executive 1990
    15. Published writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.)
    a. Article in Naval Institute Proceedings, August 2001, ``Making 
the 1s and 0s Work for You''. Article on application of flight 
recorders to military aviation.
    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated.
    All speeches listed below were slide presentations, with no formal 
text:
    (a) Speech 04/99, Naval Helicopter Association (NHA), on HUMS 
(Health Usage Monitoring Systems.
    (b) Speech 04/99 on Aircraft Wiring and In-Flight Fires, SAE 
Advances in Aviation Safety Conference, Daytona Beach, FL
    (c) Speech 10/99 on aging wiring issues; Insulated Cable 
Conference; Tampa, FL
    (d) Speech 11/99 on Team Building; SAFE Conference, Atlanta, GA
    (e) Speech 11/99 on Aging Aircraft Wiring & In-Flight Fires; Flight 
Safety Foundation (FSF) International Aviation Safety Seminar; New 
Orleans, LA
    (f) Speech 04/00 on Aging Aircraft Issues; FSF Corporate Aviation 
Safety Seminar, Executive Committee; San Antonio, TX
    (g) Speech 04/00 on Naval Safety Initiatives with COTS; Engineering 
Duty Officer School, Port Hueneme, CA
    (h) Speech 04/00 on Aging Aircraft Wiring Solutions and Aviation 
Fire Fighting; SAE Advances in Aviation Safety Conference; Daytona 
Beach, FL
    (i) Speech 06/00 on MFOQA (Military Flight Operations Quality 
Assurance) to JSSC (Joint Service Safety Chiefs) meeting, Quantico, VA
    (j) Speech 05/00 on Aviation Wiring and In-Flight Fire Issues; DOD/
FAA/NASA Aging Aircraft Conference, St. Louis, MO
    (k) Speech 06/00 on Aircraft Wiring; United Airlines hosted AWIGG 
meeting, Indianapolis, IN
    (l) Speech 11/00 on Aviation Safety Initiatives; US Airways ALPA 
Safety Meeting, Pittsburgh, PA
    (m) Speech 01/01 on CHUMS (Comprehensive HUMS); Defence Science & 
Technology Organisation, Melbourne, Australia
    (n) Speech 04/01 on MFOQA; Joint Services FOQA Conference; Atlanta, 
GA
    (o) Speech 04/01 on Aircraft Wiring; AvWeek MRO Conference; Dallas, 
TX
    (p) Speech 11/01 on Safety Programs and Leadership; Halliburton 
Executive Committee; Houston, TX
    (q) Speech 04/02 on Aviation Safety and Security; Delta Airlines 
ALPA Safety Workshop; Orlando, FL
    (r) Speech 08/02 on Aviation Safety Challenges; ALPA Safety 
Symposium; Washington, DC
    (s) Speech and Panel 01/03 on Airplane and Maintenance Safety 
Issues; Aviation Safety Alliance Seminar; San Francisco, CA
    (t) Speech and Panel 01/03 on Consequences of Transportation 
Disasters; The International Emergency Management Society; GWU, 
Washington, DC
    (u) 160 Academic Speeches--06/1986 to 01/2002 on Aviation Safety 
Programs; Naval Postgraduate School, Aviation Safety Courses; Monterey, 
CA
    (v) 11 Technical Speeches--08/1996 to present; on Aircraft Wiring 
Inert Gas Generator (AWIGG) issues; various US sites.
    17. Selection: (a) Do you know why you were chosen for this 
nomination by the President?
    I have not been apprised of any specific reasons for my nomination; 
however, I am aware that the law requires technical qualifications for 
a majority of the Board Members. The Presidential Personnel Staff 
carefully reviewed my technical qualifications and relevant experience 
prior to making their recommendation.
    (b) What in your background or employment experience do you believe 
affirmatively qualifies you for this particular appointment?
    Background in engineering, scientific investigation and problem 
solving, plus extensive experience in relevant safety areas gained 
during US Coast Guard, US Navy (civilian) and Battelle Memorial 
Institute careers. Specific achievements in aviation safety--especially 
military use of flight data recorders and aging aircraft wiring issues. 
Significant knowledge in information sharing and new technology.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate?
    Yes.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain.
    I hold a non-compensation position of Advisor to the Masters Degree 
in Aviation Safety Program of Parks College, St. Louis University. This 
has been thoroughly addressed in my ethics agreement.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization?
    No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service?
    No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable?
    Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers.
    None.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    None.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated?
    None.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or. affecting the 
administration and execution of law or public policy.
    I testified 2 times before the House Transportation Subcommittee on 
Oversight, Investigations, and Emergency Management regarding aging 
aircraft wiring issues and potential solutions:
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)
    I will comply strictly with advice from the general counsel and 
ethics counselor in all cases.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position?
    Yes.

                            D. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a compliant to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, please 
explain.
    No.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, please explain.
    No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain?
    No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain.
    No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    None.

                     E. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees?
    Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures?
    Yes.
    3. Will you cooperate in providing the committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee?
    Yes.
    4. Please explain how if confirmed, you will review regulations 
issued by your department/agency, and work closely with Congress, to 
ensure that such regulations comply with the spirit of laws passed by 
Congress.
    If confirmed, I will work closely with counsel and stakeholders to 
ensure that Board regulations are aligned with significant public 
policy interests related to transportation safety. I have always and 
will (continue to ensure that my actions conform to both the letter and 
spirit of the law.
    5. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so?
    Yes.

                  F. GENERAL QUALIFICATIONS AND VIEWS

    1. How do your previous professional experiences and education 
qualify you for the position for which you have been nominated.
    My engineering education and experiences have allowed me to work as 
a problem solver throughout my careers. I have worked as an ``expert 
witness'' in several cases where thorough investigation of an incident 
was required and a technical assessment was an essential results 
However, the most significant professional experiences came during my 
career assignment with the Navy Department, where I provided advice and 
consultation to Assistant Secretaries of the Navy on safety matters 
involving Sailors and Marines, and where I was granted the freedom to 
reach out to commercial aviation and others to share knowledge. Some 
career highlights are indicated in the following excerpt from my 
resume:
    Director-Safety & Survivability, (12/1985-2/2002), Department of 
the Navy, Office of the Secretary.
    Principal advisor and consultant to the Assistant Secretary of the 
Navy (I&B) on operational safety and survivability.
    <bullet> Direct professional staff-engineers, scientists; direct 
budget development, justification and execution.
    <bullet> Articulate vision, identify problem areas, establish 
achievable goals and initiate actions.
    <bullet> Direct the Navy Department's Non-Developmental Item (NDI) 
``Reinvention Lab''
    <bullet> Testify/maintain effective communications with Congress, 
Committees, Staffs
    <bullet> Maintain global network of safety experts and technical 
contacts
    <bullet> Guest Speaker-Safety Systems, Risk Management, Human 
Factors, Team Building, Innovation, Acquisition Reform
    Achievements:
    <bullet> Developed and successfully implemented an ``Investment 
Strategy'' for safety systems
    <bullet> Co-founded the Human Factors Quality Management Board 
(HFQMB); established HF focus
    <bullet> Created culture assessment program; identified 
interventions. Achieved 78% gain in operational excellence in one year.
    <bullet> Introduced ``best business practices''; focus on value, 
maximum return on investment.
    <bullet> Founded Aircraft Wiring-Inert Gas Generator (AWIGG) 
Working Group, 400+ member, multi-agency, international, info-sharing 
team; significantly raised awareness of wiring issues.
    <bullet> Aging Aircraft-Fostered creation of Aging Aircraft 
Integrated Product Team at NAVAIR to focus and prioritize available 
resources on critical aging efforts.
    <bullet> Organized military aviation version of FOQA (Flight 
Operational Quality Assurance)
    <bullet> Represent Navy and DoD-Global Aviation Information Network 
(GAIN) Steering Committee; Commercial Aviation Safety Team (CAST); SAE 
Aerospace International-Advances in Aviation Safety-Session Chair; 
Flight Safety Foundation-International and Corporate Safety Seminars; 
NASA/FAA/DOD Aging Aircraft Conference-Keynote speaker; AvEd 2020-
Aviation education working group; National Safety Summit-Leadership 
Cte.
    Significant Personal Achievements:
    <bullet> Implemented Naval Aircraft Collision Warning System 
(NACWS, completely eliminated T-34 mid-air collisions since 1992, 
reduced near mid-air collisions by 98%.
    <bullet> Implemented crash survivable flight data recorders (FDRs) 
on F/A-18 tactical fighter-attack aircraft, all passenger transports, 
and wrote policy to eventually cover all naval aircraft.
    <bullet> Facilitated urgent procurement of Helicopter Emergency 
Egress Device (HEED), an emergency air supply for helicopter crews; 
saved more than 150 lives since 1987. (Highlighted in movie ``The 
Perfect Storm'').
    2. Why do you wish to serve in the position for which you have been 
nominated?
    There is no higher goal or honor for any safety professional with a 
background in transportation than to serve the country as a Member of 
the NTSB. I view this opportunity to serve as the pinnacle of a 
professional safety career. My involvement with many different forms of 
transportation, notably aviation and maritime safety, in combination 
with my background in business and military leadership, have motivated 
me to serve on the NTSB.
    What goals have you established for your first two years in this 
position, if confirmed?
    Initially, I intend to familiarize myself with all aspects of the 
Board's functions, to review the many accomplishments of the Board, and 
to focus on areas where safety improvements have been recommended or 
identified. I look forward to working closely with the Chairman and 
other Board Members, with other government agencies, with industry, and 
with academia in the pursuit of higher levels of safety for our 
critical transportation infrastructure.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills?
    I am confident my career experiences have developed and matured all 
the requisite skills.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when society's problems 
should be left to the private sector, and what standards should be used 
to determine when a government program is no longer necessary.
    With respect to transportation safety, the federal government is 
appropriately involved when there is a requirement for the 
establishment of standards and regulations that ensure the safety of 
the traveling public, and safe conduct of commercial activity linked to 
the national economy. When the private sector voluntarily and uniformly 
maintains equal or higher standards than might be established through 
federal regulation necessary to ensure transportation related safety, a 
federal program designed to ensure the maximum safety throughout the 
transportation infrastructure may no longer be necessary:
    6. Describe the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated.
    The Safety Board's mission includes investigation of significant 
transportation accidents, determining ``probable cause(s)'', and making 
recommendations to improve transportation safety. Since 1996, it also 
has responsibility for coordinating support services for victims' 
family members. In addition to training and maintaining the requisite 
staff to perform all of the mission requirements, the NTSB has programs 
to communicate with all interested parties, to conduct educational 
activities and safety studies related to all five modes of 
transportation, and to follow up. on recommendations that have been 
made as a result of their investigations. The major operational 
objective is to improve safety across the transportation system. To 
achieve that, the NTSB must maintain a completely independent status 
while investigating all significant accidents and making appropriate 
recommendations.
    7. What do you believe to be the top three challenges facing the 
department/agency and why?
    While many challenges confront this very small organization, its 
limited size and constrained budget in a rapidly changing technological 
environment create extraordinary challenges for NTSB leadership. 
Keeping up with rapid technology developments (e.g., use of composite 
material in aircraft construction) requires focused research and 
training, all of which is impacted when accident investigation consumes 
staff time and valuable resources. Maintaining a highly qualified and 
knowledgeable staff is key to maintaining the excellence and 
independent status of the NTSB. Improving efficiency of the NTSB under 
the existing budgetary constraints requires innovative management 
actions. And balancing priorities among the five major modes of 
transportation requires both management initiatives and educational 
activity to ensure that available resources are focused on areas with 
the greatest potential for return on the investment.
    8. In reference to question number six, what factors in your 
opinion have kept the department/agency from achieving its missions 
over the past several years?
    Despite the many challenging circumstances in terms of limited 
budgets and struggles to maintain its highly qualified staff in a 
rapidly changing area of responsibility, the NTSB has been largely 
successful in achieving its mission responsibilities. The RAND study 
quite strongly stated, however, that NTSB was ``close to the breaking 
point'' from lack of adequate resources.
    9. Who are the stakeholders in the work of this department/agency?
    The first and foremost stakeholders are the traveling public, 
citizens and customers who depend on their government to ensure a safe 
transportation system.' Additionally, all members of the transportation 
community--manufacturers, regulators, operators and their employees, 
legislators, media and academia--have a stake in the NTSB's 
performance.
    10. What is the proper relationship between the position to which 
you have been nominated, and the stakeholders identified in question 
number nine?
    The NTSB's effectiveness depends fundamentally on its ability to 
function independent of outside influences. However, thorough 
understanding of the industry, including stakeholders' capabilities, 
can provide the sound basis for making realistic, achievable 
recommendations, without compromising the independence of the Board.
    11. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices.
    a. What do you believe are your responsibilities, if confirmed, to 
ensure that your department/agency has proper management and accounting 
controls?
    As a Board Member, I will participate in management meetings and 
decisions led by the Chairman which will consider these issues among 
others. I will additionally have at heart the conscience of a taxpayer 
who is interested in ensuring the maximum value in return for the 
investment of public funds.
    b. What experience do you have in managing a large organization?
    I had a significant managerial role for a period of 2 years during 
which I was the Deputy Group Commander (#2 Executive) of a 250+ person 
United States Coast Guard Group in New York.
    12. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals.
    (a) What benefits, if any, do you see in identifying performance 
goals and reporting on progress achieving those goals?
    It is always important to measure achievement of goals; but this 
does not necessarily mean that failure to meet ones goals should be 
cause to discontinue an effort. A continual review process is 
appropriate to ensure that goals are correctly set in the first place; 
and that progress is monitored.
    (b) What steps should Congress consider taking when a 
departmentlagencyfails to achieve its performance goals? Should these 
steps include the elimination, privatization, downsizing, or 
consolidation of departments and/or programs?
    Congress should consider a review of the goal setting process to 
ensure that realistic goals have been set, given the circumstances 
(i.e. are the necessary resources available in light of the goals being 
set?). Once a thorough review of goals vs resources available has been 
completed, then all options should be considered (i.e. privatization, 
downsizing).
    (c) What performance goals do you believe should be applicable to 
your personal performance, if confirmed?
    I expect only the highest achievement of personal performance 
goals; and I believe others should expect the same of me. The 
requirements for Board Member performance are quite clearly stated; and 
there is ample time to meet those requirements and to exceed them in 
many ways.
    13. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you?
    I have always practiced a team based model, understanding that 
every team member brings something of value to the organization. As a 
team leader, I believe it is my duty to create an environment where 
cooperation, collaboration and mutual respect, flourish, producing 
highly effective performance. To my knowledge, there have never been 
any employee complaints against me:
    14. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please describe.
    As Director for Navy Safety, I was asked to testify before the HASC 
Readiness Subcommittee in 1995 and Safety and Survivability 
technologies. In 1999 and 2000, I also testified before the House 
Transportation Subcommittee on Oversight, Investigations and Emergency 
Management regarding aircraft wiring safety. From Jan 83 thru Feb 02, I 
had direct conversations or written correspondence with staff and 
Members, frequently receiving compliments for timely, accurate and 
thorough responses to their inquiries.
    15. (Note the formal questionnaire did not have #15 on it.)
    16. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency.
    By law, the DOT Inspector General has oversight of only financial 
matters at the NTSB. I am advised that the Chairman, Managing Director 
and Chief Financial Officer are the principal NTSB contacts with the 
Inspector General. I will, of course, support and respond to the IG as 
required.
    17. In the areas under the department/agency's jurisdiction to 
which you have been nominated, what legislative action(s) should 
Congress consider as priorities? Please state your personal views.
    The Congress should consider the Transportation Appropriations Bill 
and the National Transportation Safety Board Amendments Act of 2002 as 
high priorities.
    18. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending in an open 
manner through a set of fair and objective established criteria? If 
yes, please explain what steps you intend to take and a time frame for 
their implementation. If not, please explain why.
    Yes. It is my understanding that the Chairman, Managing Director, 
and Chief Financial Officer are primarily responsible for budget 
development and execution at the NTSB. For those financial matters 
within my authority, I pledge to allocate discretionary spending in a 
fair and open manner. I am not aware of the amount of discretionary 
funding available to a Board Member.

    The Chairman. Thank you, Mr. Healing.
    Mr. Rosenker.

STATEMENT OF MAJOR GENERAL MARK V. ROSENKER, USAFR, DIRECTOR OF 
 SPECIAL PROJECTS, AVIATION OPERATIONS TRANSPORTATION SECURITY 
                         ADMINISTRATION

    Mr. Rosenker. Good morning, Mr. Chairman, distinguished 
Members of the Committee. I am pleased and honored to appear 
before you as you consider confirmation of my nomination as a 
member of the National Transportation Safety Board. I am 
grateful to President Bush for this nomination and particularly 
for his confidence in my ability to continue to serve our 
Nation in this unique and critically important position.
    For nearly four decades, the National Transportation Safety 
Board has been at the forefront of transportation safety 
issues, the conscience, if you will, of America's vital 
transportation network. The NTSB is not only our Nation's 
premier accident investigation agency, but also enjoys a 
reputation as the most authoritative, independent safety body 
in the world. The board has worked long and hard over the years 
to maintain its reputation as being the best in the safety 
business, and if confirmed, I will do everything within my 
power to ensure that the decisions I make and the votes that I 
cast are done in that spirit of maintaining and improving 
safety for the traveling public.
    I am sure you will agree, America's transportation industry 
is one of its most important economic sectors, and, as such, 
protecting the vitality of that sector by ensuring the safe 
movement of people and commerce are the primary and most 
crucial role of the NTSB. The dedicated men and women who make 
up the staff of the board have made tremendous strides in 
making each one of our Nation's transportation modes safer, 
thus stronger.
    I am energized by the prospect, if confirmed, of being part 
of the leadership of this incredibly competent team of safety 
experts and advocates. My diverse experience in motor vehicle 
safety advocacy, regulatory affairs, healthcare in both the 
active and reserves of the United States Air Force, I believe 
give me an excellent background to serve as a member of the 
NTSB during this unique period in our Nation's history.
    I look forward, if confirmed, to making contributions to 
the public's confidence in the country's public transportation 
system, thus strengthening an industry vital to America's 
overall economic and national security.
    Sir, I look forward to answering any questions.
    [The prepared statement of Mr. Rosenker follows:]

 Prepared Statement of Major General Mark Rosenker, USAFR, Director of 
    Special Projects, Aviation Operations, Transportation Security 
                             Administration

    Good morning. Mr. Chairman, distinguished members of the Committee. 
I am pleased and honored to appear before you today as you consider 
confirmation of my nomination as a Member of the National 
Transportation Safety Board. I am grateful to President Bush for this 
nomination and particularly for his confidence in my ability to 
continue to serve our Nation in this unique and critically important 
position.
    I would like to thank Senator George Allan from my home state of 
Virginia for his kind introduction and support. Along with Senator John 
Warner's generous remarks submitted for the record.
    (With your permission Mr. Chairman, I would like to introduce my 
wife Heather to the Committee.)
    For nearly four decades the National Transportation Safety Board 
has been at the forefront of transportation safety issues, the 
conscience, if you will, of America's vital transportation network. The 
NTSB is not only our nation's premier accident investigation agency, 
but also enjoys a reputation as the most authoritative independent 
safety body in the world.
    The Board has worked long and hard over the years to maintain its 
reputation as being the ``best in the safety business.'' And if 
confirmed, I will do everything within my power to ensure that the 
decisions I make and the votes that I cast are done in that spirit of 
maintaining and improving safety for the traveling public. I am sure 
you will agree, America's transportation industry is one of its most 
important economic sectors and as such protecting the vitality of this 
sector by ensuring the safe movement of people and commerce is the 
primary and most crucial role of the NTSB. The dedicated men and women 
who make up the staff of the Board have made tremendous strides in 
making each one of our nation's transportation modes safer, thus 
stronger.
    I am energized by the prospect, if confirmed, of being part of the 
leadership of this incredibly competent team of safety experts and 
advocates. My diverse experience in motor vehicle safety advocacy, 
regulatory affairs, health care and the United States Air Force, I 
believe, give me an excellent background to serve as a Member of the 
NTSB during this unique period in our Nation's history. I look forward, 
if confirmed, to making contributions to the public's safety confidence 
in the country's transportation system; thus strengthening an industry 
vital to America's overall economic and national security.
                                 ______
                                 
          Biographical and Financial Information Requested of 
                       Department/Agency Nominees

                      A. BIOGRAPHICAL INFORMATION

    1. Name: (Include any former names or nicknames used.) Mark Victor 
Rosenker
    2. Position to which nominated: Member, National Transportation 
Safety Board
    3. Date of nomination: 19 January 2003
    4. Address: (Information not made available to the public.)
    5. Date and place of birth: 12/08/46; Baltimore, MD.
    6. Marital status: (Include maiden name of wife or husband's name.)
    Married, Heather Beldon Rosenker
    7. Names and ages of children: (Include stepchildren and children 
from previous marriages.)
    None
    8. Education: (List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.)
    <bullet> Forest Park High School 1962-1965 Diploma
    <bullet> Baltimore Community College 1965-1966
    <bullet> University of Maryland 1966-69, BA Communications
    <bullet> University of Maryland Graduate Study, University College, 
1970-1971
    <bullet> Department of Defense Information School, Graduate, 1969
    <bullet> Air Command and Staff College, Graduate, Extension Course 
Institute, 1983-1985
    <bullet> Air War College, Graduate, Associate Studies Program, 
1988-1990
    9. Employment record: (List all jobs held since college, including 
the title or description of job, name of employer, location of work, 
and dates of employment.)
    <bullet> Department of Transportation, Transportation Security 
Administration, Program Manager, Special Projects Office, Washington, 
DC, November 2002-present
    <bullet> White House, Deputy Assistant to the President and 
Director, White House Military Office, Washington, DC, January 2001-
November 2002
    <bullet> United Network for Organ Sharing, Assistant Executive 
Director, External Affairs & Managing Director Washington DC Office, 
Washington, DC, November 1999-January 2001
    <bullet> Electronic Industries Alliance, aka (Electronic Industries 
Association) Corporate Officer and Vice President of Public Affairs, 
Arlington, VA, February 1977 to October 1999
    <bullet> National Committee to Elect President Ford, Deputy Press 
Secretary, Washington, DC, January 1976-December 1976
    <bullet> Motorized Bicycle Association, aka (American Moped 
Association) Director of Communications, Washington, DC, 1975-1976
    <bullet> Daniel J. Edelman Public Relations, Account Executive, 
Washington, DC, 1973-75
    <bullet> Department of the Interior, Staff Assistant: 
Communications, Office of the Secretary, Washington, DC, 1972-1973
    <bullet> Committee to Re-elect the President, Deputy Director, 
Radio/TV, Press Office, Washington, DC, 1972
    <bullet> United States Air Force, Advertising and Publicity 
Officer, Air Force Recruiting Service, Alexandria, VA 1971-1972
    <bullet> United States Air Force, Public Information Officer, 
Headquarters Air Force Systems Command, Andrews Air Force Base, MD, 
1969-1971
    10. Government experience: (List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.)
    <bullet> United States Air Force Reserve, 1972 to present. Current 
rank, Major General, current assignment, Mobilization Assistant to the 
Secretary of the Air Force
    <bullet> American Battle Monuments Commission, Commissioner, 1990-
1994
    <bullet> Community College of the Air Force, Member of the Board of 
Visitors, 1981-1986
    <bullet> Federal Communications Commission, Member, National 
Industry Advisory Committee, 1978-1981
    <bullet> Commodity Futures Trading Commission, Office of the 
Chairman, 1976-1977
    <bullet> Federal Trade Commission, Office of the Chairman, 1974-
1976
    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.)
    HRS Partnership (bareboat lease/charter partnership) 33% interest, 
198182; 50% interest, 1983-1990.
    HRS Partnership dissolved in 1990. Vessel turned into private use 
until sale in 1995, 50% interest.
    Boat slip rental property, 50% interest, sold Jan 2002.
    Brat Pack Investment club 20% interest. Sole holding 1,295 shares 
of ADC Telecommunications.
    12. Memberships: (List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.)
    <bullet> Army-Navy Club, Washington DC, 1990 to present
    <bullet> Andrews AFB Officers Club Andrews AFB, 1969 to present
    <bullet> Capitol Hill Club 1973 to 2000
    <bullet> Bryce Resort, Basye VA, 1986 to present
    <bullet> Military Order of the Carabao 2001 to present.
    13. Political affiliations and activities: (a) List all offices 
with a political party which you have held or any public office for 
which you have been a candidate.
    None
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years.
    <bullet> Dole/Kemp Campaign, 1996, volunteer consultant.
    <bullet> Bush/Cheney Campaign, 2000, volunteer consultant
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.
    $500 contribution to Darrell Issa for Congress in 2000.
    14. Honors and awards: (List all scholarships, fellowships, 
honorary degrees, honorary society memberships, military medals and any 
other special recognitions for outstanding service or achievements.)
    University of Maryland Centennial Distinguished Graduate, 2001; 
American Battle Monuments Commission Distinguished Service Medal; USAF 
Distinguished Service Medal; Legion of Merit, Meritorious Service Medal 
(1 oak leaf cluster) USAF Commendation Medal; Department of Defense 
Achievement Medal; USAF Achievement Medal (1 oak leaf cluster)
    15. Published writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.)
    None
    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated.
    None
    17. Selection: (a) Do you know why you were selected for the 
position to which you have been nominated by the President?
    I believe I was selected because of my strong record of achievement 
and results both at the White House and in my prior appointments in the 
private and public sectors. My demonstrated interest, enthusiasm and 
success in issue advocacy is another reason I believe the President 
made this nomination.
    (b) What in your background or employment experience do you believe 
affirmatively qualifies you for this particular appointment?
    For more than three decades, I have held numerous responsible 
executive and management positions both in the public and private 
sectors dealing with issues of national significance. Most recently I 
was privileged to work as a member of President Bush's senior staff.
    As Deputy Assistant to the President and Director of the White 
House Military Office, I directed ten major organizations consisting of 
military staff and assets that provide 24/7 operational and technical 
support to the President, Vice President and the White House staff. 
This support included but was not limited to: Air Force One, Marine 
One, White House Communications Agency, President's Emergency 
Operations Center (PEOC), Airlift Operations, White House 
Transportation Agency, Camp David, the White House Medical unit and 
contingency programs.
    During my 34 years as an officer in the United States Air Force and 
Air Force Reserve, I was the spokesman for a number of significant 
operations, exercises, accidents and incidents dealing with Air Force 
aircraft, personnel and equipment.
    I also have experience in the highway safety area by virtue of my 
issue advocacy work on behalf of the American Safety Belt Council, 
Motorcycle Safety Foundation, Safety Helmet Council of America and the 
Motorized Bicycle Association.
    As a recreational sail boater for nearly 20 years, I have a great 
interest in marine safety and education.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

    1. Will you sever all connections with your present employers, 
business firms, business associations, or business organizations if you 
are confirmed by the Senate?
    Yes
    2. Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain.
    No
    3. Do you have any plans, commitments, or agreements after 
completing government service to resume employment, affiliation, or 
practice with your previous employer, business firm, association, or 
organization?
    No
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service?
    No
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable?
    Yes

                   C. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers.
    None
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    None
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated?
    None
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    During my career as chief spokesman for the Electronic Industries 
Alliance, representing the US electronics industry, and the United 
Network for Organ Sharing, UNOS, (the national organ transplant 
network), I have made numerous statements and answered a myriad of 
media queries on a host of issues having to do with the laws, 
regulations, and policies of those two diverse communities. Some of the 
major issues I spoke out in support of included: NAFTA, Making 
Permanent the R&D Tax Credit, Improvement of Export Controls, Rewrite 
of Circular A76, privatization and outsourcing, Federal Rules 
pertaining to Organ Donation and Allocation. My role was not that of a 
registered lobbyist.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)
    As a senior officer in the Air Force Reserve, if confirmed, I will 
recuse myself from any investigation involving USAF aircraft unless the 
Chairman found my participation necessary and appropriate. I believe 
there are no other issues that would constitute a conflict of interest.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position?
    Yes

                            D. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain.
    No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other
    than for a minor traffic offense? If so, please explain.
    Detained in 1965 at the age of 18, along with two friends, in 
Atlantic City NJ, malicious mischief, charges dismissed. Detained in 
1966 at the age of 19, along with one friend, in Baltimore, MD, 
possession of beer below age of 21, charges dismissed.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain.
    No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    None.

                     E. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees?
    Yes
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures?
    Yes
    3. Will you cooperate in providing the committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee?
    Yes
    4. Please explain how if confirmed, you will review regulations 
issued by your department/agency, and work closely with Congress, to 
ensure that such regulations comply with the spirit of the laws passed 
by Congress.
    The work of the NTSB has no substantive regulatory authority, yet 
bears a significant share of the responsibility for ensuring the safety 
of the nation's transportation modes. It gets its significant influence 
by providing independent, timely, accurate factual findings and 
analytical conclusions from the numerous accidents it investigates both 
at home and abroad. The NTSB is considered the world's foremost 
authority in transportation accident investigation and as a result 
enjoys a unique persuasive power when it makes its recommendations to 
federal, state and local agencies. If confirmed, as part of my 
responsibilities as a Member, I will review all new Board regulations 
to ensure compliance with the spirit of the laws passed by Congress.
    5. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so?
    Yes

                  F. GENERAL QUALIFICATIONS AND VIEWS

    1. How does your previous professional experiences and education 
qualify you for the position for which you have been nominated?
    During my professional career, I have been employed in a wide and 
varied array of management and policy positions both in the public and 
private sectors. All of this experience, I believe, will be most 
valuable in understanding and discharging my responsibilities as a 
member, if confirmed, of the NTSB.
    Most recently, I was responsible for managing one of the most 
important support functions within the White House, the White House 
Military Offices. It maintained 24/7 operations, to provide the 
President military support in his role as commander in chief, head of 
state and chief executive.
    Twenty-three years of working on behalf of America's electronics 
industry has given me an excellent understanding and recognition of the 
role technology can play in accident prevention and improved 
efficiencies within all modes of the transportation community. My 
federal experience as a staff member and industry member advisor at 
three independent regulatory agencies, the Federal Trade Commission, 
the Commodity Futures Trading Commission and the Federal Communications 
Commission enabled me to gain valuable insight into the federal 
regulatory process.
    As a Presidentially appointed Commissioner for the American Battle 
Monuments Commission for four years, I routinely made and voted on 
management decisions and policies having to do with all facets of 
design, new construction, operations and maintenance of numerous 
Federal monuments, memorials and cemeteries under its purview, both at 
home and abroad.
    My work in vehicle safety through the American Safety Belt Council, 
The Safety Helmet Council of America, The Motorcycle Safety Foundation 
and the Motorized Bicycle Association have given me a solid foundation 
for continued advocacy in this important area of transportation safety.
    Last, but not least, my 34 years in the Air Force and Air Force 
Reserve have given me tremendous experience working with aviators, the 
aviation community, as well as my role as spokesman for the Air Force 
on a host of issues and activities.
    2. Why do you wish to serve in the position for which you have been 
nominated?
    The transportation system is one of our nation's most important 
economic sectors, and ensuring the safe movement of people and 
commerce, is a critical role for the NTSB. To serve as a member of the 
Board during this unique period in our nation's history, provides me an 
unparalleled opportunity, to not only make contributions to 
transportation safety, but to maintain the public's confidence in the 
nation's transportation system; thus strengthening an industry vital to 
America's economic and national security.
    3. What goals have you established for your first two years in this 
position, if confirmed?
    The first goal I will pursue, if confirmed, is to become a 
tenacious advocate for the implementation of the Board's ``Most Wanted 
List''. The list contains priority safety recommendations that if and 
when. implemented, the Board believes will have significant safety 
benefit for the transportation mode each recommendation addresses.
    Second, I am interested in the role technology can play in accident 
prevention and will explore this subject further if I am confirmed to 
the Board.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills?
    Whereas, I believe I currently possess the necessary skills to be 
an effective member of the Board, my knowledge of all aspects of safety 
for each and every mode of transportation I would characterize as work 
in progress. I believe in continuous improvement. If confirmed, I will 
strive everyday to learn from the Board staff, outside experts, as well 
as my fellow Board members in order to provide the citizens of this 
country with the most objective and thoughtful decisions on safety 
issues I can make.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when society's problems 
should be left to the private sector, and what standards should be used 
to determine when a government program is no longer necessary.
    It is my belief that the government and private sector have two 
distinct roles, but are totally dependent upon each other, if each is 
to be successful. The government's role is to protect the rights and 
freedoms of individual citizens. It does this by making laws and 
administering them for the good order, well being and safety of our 
society.
    The private sector's role on the other hand is to be the economic 
engine of the country. It creates the jobs necessary to produce the 
goods and services required for a thriving economy. A strong and 
growing economy results in an improved standard of living for a 
nation's citizens. I believe it is government's responsibility to 
create an environment where the private sector can flourish. A host of 
government policies to include but not limited to, money,. tax, trade, 
agricultural, health, educational, security, environmental, regulatory, 
and in the case of the transportation sector, safety, can do much to 
influence the success or failure of the economy. In the case of 
transportation, I believe the government has been an extremely positive 
force in this sector's success. It has created an environment where it 
could grow in 2001 to nearly $500 billion, making America the largest 
provider of the safest transportation goods and services in the world.
    I believe a government program should be abolished if its mission 
is no longer relevant, needed and/or if the private sector can 
accomplish this mission, as it is no longer an inherently governmental 
function.
    6. Describe the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated.
    Mission:
    The National Transportation Safety Board is an independent Federal 
agency charged by Congress with investigating every civil aviation 
accident in the United States and significant accidents in the other 
modes of transportation--railroad, highway, marine and pipeline-and 
issuing safety recommendations aimed at preventing future accidents. 
The Safety Board determines the probable cause of:
    <bullet> All U.S. civil aviation accidents and certain public-use 
aircraft accidents;
    <bullet> Selected highway accidents;
    <bullet> Railroad accidents involving passenger trains or any train 
accident that results in at least one fatality or major property 
damage;
    <bullet> Major marine accidents and any marine accident involving a 
public and a nonpublic vessel;
    <bullet> Pipeline accidents involving a fatality or substantial 
property damage;
    <bullet> Releases of hazardous materials in all forms of 
transportation; and
    <bullet> Selected transportation accidents that involve problems of 
a recurring nature.
    Major Programs:
    <bullet> Aviation Safety
    <bullet> Marine Safety
    <bullet> Highway Safety
    <bullet> Pipeline Safety
    <bullet> Hazardous Materials Safety
    <bullet> Hosts public forums on all transportation modes
    <bullet> Public Hearings on specific incidents
    <bullet> NSTB Academy--major initiative aimed at improving the 
training and skills of its employees and making its safety expertise 
widely available to those interested parties within the transportation 
community.
    <bullet> Family Affairs Office
    Operational Objectives:
    <bullet> Accurate accident investigation
    <bullet> Meaningful, appropriate and effective safety 
recommendations
    7. What do you believe to be the top three challenges facing the 
department/agency and why?
    In my opinion the three top challenges facing the NTSB today are 
first, people, second facilities and third, resources.
    Concerning the first issue, people; in order to be successful the 
Board must continue to be able to attract, train, and retain, dedicated 
professional people with the right skills to successfully meet this 
important mission.
    The facilities issue is extremely important. The Board should be on 
the cutting edge of technology with state-of-the-art laboratories and 
equipment to adequately fulfill its mission. Routinely, other agencies 
and nations turn to NTSB for support from its recorder and materials 
laboratories. Without proper facilities, even the best investigators 
will be unable to do their best work.
    Lastly, the Safety Board must have adequate resources in order to 
do its job effectively and efficiently. Hundreds of millions of people 
rely on this Board to ensure we have safest transportation system 
possible. The cost to the taxpayer is virtually pennies. on a per 
capita basis for the important safety results it achieves.
    8. In reference to question number six, what factors in your 
opinion have kept the department/agency from achieving its missions 
over the past several years?
    I would suggest that for the most part the NTSB has been quite 
effective in carrying out it mission and achieving its goals and 
objectives during its more than 35 year history. Since its inception, 
the NTSB has investigated more than 114,000 aviation accidents, issuing 
nearly 12,000 safety recommendations with more than 82% of its 
recommendations being adopted by federal, state, and local regulatory 
authorities and the transportation industry.
    9. Who are the stakeholders in the work of this department/agency?
    The stakeholder base of tho NTSB is both large and diverse, 
covering the entire US traveling population, world travelers, 
Department of Transportation and its modal administrations, all 
segments of the transportation industry including pipeline safety, as 
well as the United States Congress.
    10. What is the proper relationship between the position to which 
you have been nominated, and the stakeholders identified in question 
number nine?
    My relationship with stakeholders is to engage them in NTSB 
efforts, studies and actions. It is to keep them informed of the work 
of NTSB and to seek their support, guidance and participation where 
appropriate in order to ensure that we continue to have the safest 
transportation system in the world.
    11. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices.
    (a) What do you believe are your responsibilities, if confirmed, to 
ensure that your department/agency has proper management and accounting 
controls?
    It is the primary responsibility of the Chairman, as chief 
executive officer and administrative officer, for day to day operations 
of the Board. I would be available to offer my advice and counsel on 
this or any other management issue should the Chairman desire it.
    (b) What experience do you have in managing a large organization?
    While at the White House l successfully managed an extremely large 
government office with a substantial budget, staff and significant 
responsibilities.
    Prior to my White House appointment, I was one of the four senior 
executives that managed the Nation's organ transplant network. I also 
was a corporate officer and Vice President of one of the largest trade 
organizations in the United States. I am also currently a Major General 
in the United States Air Force Reserve.
    12. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals.
    (a) What benefits, if any, do you see in identifying performance 
goals and reporting on progress in achieving those goals?
    The need to identify and measure performance goals is an absolutely 
necessary management tool. It seems to me that NTSB's goals are quite 
clear and public. They prioritize their recommendations and vigorously 
work toward implementation. The benefits in reporting and achieving 
these goals are seen by virtue of more than 80% of NTSB's safety 
recommendations are ultimately implemented at a federal, state or local 
level. Not only do these metrics indicate an effective Federal 
organization, but more importantly result in lives being saved by 
safety improvements in all modes of transportation.
    (b) What steps should Congress consider taking when a department/
agency fails to achieve its performance goals? Should these steps 
include the elimination, privatization, downsizing, or consolidation of 
departments and/or programs?
    Fortunately, I have not been associated with any Federal agency or 
even a private sector entity that failed to achieve its performance 
goals. Therefore my experience and advice on how to deal with such a 
disappointing occurrence would strictly be hypothetical and lacking in 
credibility. in response to this question.
    (c) What performance goals do you believe should be applicable to 
your personal performance, if confirmed?
    I believe my personal performance goals should be directly tied to 
the success of the Board. Safety recommendations need to be approved by 
the 5 Member Board. Thus, I must take full responsibility, if 
confirmed, for the decisions and votes I make and ultimately if these 
recommendations are or are not adopted by the appropriate authorities.
    13. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you?
    My philosophy of supervisor/employee relationships is one of 
creating an environment of teamwork. Building a collaborative 
environment in which all members work together toward achieving 
established goals and objectives is one of the most challenging tasks a 
supervisor can undertake. Communication is clearly one of the most 
important elements in achieving this environment. Both the supervisor 
and employee must know and be comfortable with their individual roles 
and responsibilities. While management sets the direction, employees 
should be made to feel that their efforts are integral to the success 
of the mission no matter how big or small their individual 
contributions. During my career both in military and civilian 
management, I have found that using this approach has been an effective 
tool in both achieving the goals, while at the same time maintaining a 
congenial and cooperative workplace. No employee complaints have been 
brought against me.
    14. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please explain.
    In my professional career my relationship with Congress has been 
primarily as an information provider to committees and staff concerning 
issues related to the industries I represented.
    15. No question 15 provided by committee.
    16. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency.
    The role of the Inspector General at the NTSB, I believe is a 
unique one given the fact that when necessary the IG comes from the 
Department of Transportation and only has jurisdiction over financial 
management issues of the agency unless specifically invited to address 
other matters. My role is to cooperate if needed in any investigation 
covering financial management that the Inspector General undertakes and 
or suggest investigations if I have reason to believe there is 
significant waste, fraud, or abuse at the NTSB.
    17. In the areas under the department/agency's jurisdiction to 
which you have been nominated, what legislative action(s) should 
Congress consider as priorities? Please state your personal views.
    Congress should ensure that the Board's mandate for investigation 
across modes is clear as has been done on behalf of aviation. That type 
of
    legislation would provide the Board clear authority and enable the 
Board to make effective and timely investigations and recommendations.
    18. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending in an open 
manner through a set of fair and objective established criteria? If 
yes, please explain what steps you intend to take and a time frame for 
their implementation. If not, please explain why.
    As I stated in response to question 11, it is the primary 
responsibility of the Chairman, as chief executive; officer and 
administrative officer, for day to day operations of the Board. I would 
be available to offer my advice and counsel on this or any other 
management issue should the Chairman desire it.

    The Chairman. Thank you very much, sir.
    Senator Inouye.

               STATEMENT OF HON. DANIEL INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. Thank you, Mr. Chairman. I have no 
questions, but, like all of my colleagues, I am well aware that 
the NTSB is recognized as the world's premier independent 
accident prevention investigating agency, and I feel confident 
in listening to them and reading their background that this 
premier position will be maintained.
    I congratulate all of you.
    The Chairman. Senator Allen.
    Senator Allen. Thank you, Mr. Chairman.
    I apologize for being late, especially to Mr. Healing and 
Mr. Rosenker. I was presenting another Virginian to the Armed 
Services Committee, and Senator Warner and Senator Levin were 
discussing how important last night's votes were, and so it 
took awhile to get started. And so I do apologize to you all, 
but particularly to these two Virginians.
    Listening to Senator Inouye, I will not ruin their 
reputation by saying anything. You learn, as a lawyer, you 
know, do not ask questions if your witnesses have adduced and 
presented the evidence.
    I do want to say both of these individuals have outstanding 
records. Mr. Healing, in particular, I would say, served in the 
private sector in a variety of ways. He is currently with the 
Battelle Group, which is a very well- respected organization, 
as director of Transportation Safety and Security. He has 
worked with the FAA and TSA. And previously, what I like is 
your private-sector experience, and I think you will look at 
that. It shows a career that he is a problem solver. He is a 
leader. He encourages innovative thinking. I like that, 
particularly as it is a rare commodity, it seems, in 
government. And he has done a lot of things to cut through red 
tape that has actually saved lives, particularly those in the 
military, where he was able to get placed into service a device 
that sailors and marines were buying and got it into service. 
His action cut 39 months from the planned approval process. And 
during that time, it is verified that 24 lives were saved, and 
that is the kind of forward-thinking creativity that we like.
    I do not know if--Mr. Healing, have you presented your 
family already?
    Mr. Healing. Yes, I did, Senator.
    Senator Allen. OK. The family is here, as well.
    Mr. Rosenker, another good resident of the Commonwealth of 
Virginia, has a distinguished service in the Air Force Reserve. 
He is major general in the Air Force Reserve, 33 years of 
active duty and reserve experience. You have looked at his 
record, as well, and I think you all know that the President 
appointed Mr. Rosenker right at the beginning, in 2001, to be a 
deputy assistant to the President in a military office. And, 
again, another outstanding individual. His only drawback is he 
went to the University of Maryland, but----
    Mr. Rosenker. Sir, I could not get into Virginia, so I 
had----
    [Laughter.]
    Senator Allen. However, they recognized him and presented 
him the distinguished Centennial Graduate Award there.
    At any rate, again, both of these individuals, I think, 
will be of exemplary service, and we look forward to working 
with you.
    And thank you, Mr. Chairman, Members of the Committee.
    The Chairman. Thank you.
    Senator Lautenberg.

              STATEMENT OF HON. FRANK LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Mr. Chairman, I think we have got a 
fairly easy task here this morning, because, recognizing the 
importance of the National Transportation Safety Board, it is 
comforting to listen to the statements of the three outstanding 
nominees and to be encouraged by their experience and their 
commitment. We are glad that they are willing to serve, and I 
certainly have no problems.
    There are a couple of things I would like to just ask 
questions about. Mr. Chairman, I note and I would enter in the 
record an editorial in USA Today about the private-sector 
involvement at FAA investigations, and it is some criticism of 
that activity that----
    The Chairman. Without objection.
    [The information referred to follows:]
    [Not available at the time of press.]
    Senator Lautenberg. The administration has indicated that 
it is considering privatizing the controller structure of the 
FAA, and it disturbs me.
    In June of 2002, President Bush issued an executive order 
stripping ATC of its inherently governmental status. And in 
December, 2002, 6 months later, he issued a document 
designating ATC as a commercial activity, which opens the door 
to full privatization for that section of the controller 
workforce.
    Well, I am in opposition of the privatization of our air 
traffic control system. And, frankly, I have a hard time 
understanding the rationale. In the wake of 9/11, the public 
demanded that baggage inspection be taken away from private 
hands and put into government hands because it was felt that 
government would do it better. And it is hard to understand 
that once the planes are loaded, in the air, why we would want 
to contract out air traffic control responsibilities to the 
lowest bidder. Security on the cheap is not what we are looking 
for in this country. It does not make sense.
    And I would ask each of you if you have a thought about the 
privatization of ATC and what you think the impact could be or 
might be on aviation safety.
    Madam Chairman? And I am glad you said that, Chairman, 
because we play with the word here and never want to insult a 
woman. On the other hand, by the time you get finished figuring 
out how to do it delicately, the hearing is over.
    [Laughter.]
    Ms. Engleman. Well, thank you, sir. I also have the 
privilege to serve as a naval reserve officer, so you would 
have to go pretty far to concern me.
    [Laughter.]
    Ms. Engleman. If I may, I cannot offer an educated opinion 
on this subject at this time. I would only suggest that, given 
the NTSB's focus on safety, we would review any and all such 
proposals under that mission objective. Safety is our primary 
mission. Transportation safety, of course, has a multitude of 
elements involved in it.
    We are all facing challenges now. Government has many, many 
additional duties, money is scarce, and we must leverage and 
find new ways to handle the duties and responsibilities given 
to us by the American public. So I can only say that this is an 
issue of great importance and it would be something that I 
would put great attention to, but it would be inappropriate for 
me to give an uneducated guess at this time.
    Senator Lautenberg. OK, we will give you a chance to get 
your education, and then how about tomorrow?
    [Laughter.]
    Senator Lautenberg. Thank you for that response.
    Ms. Engleman.  At the pleasure of the Committee, sir.
    Senator Lautenberg. Mr. Healing.
    Mr. Healing. Senator, I, discretion being the greater part 
of valor, agree with my potential future chairman. And I do 
want to say that it is definitely a serious issue, and as 
safety concerns or safety issues are raised with respect to 
that type of a change, I look forward to working with the staff 
at the NTSB, who I have found to be incredibly well qualified, 
and learning from them what type of safety issues really are 
there.
    Senator Lautenberg. Mr. Rosenker.
    Mr. Rosenker. Senator, I, too, agree with my two 
colleagues, in that at this time what I would like to do is 
learn both sides of the issue, but I clearly will be studying 
it and, at that point, will be delighted, if confirmed, to then 
have an opportunity to make a decision.
    Senator Lautenberg. OK. I would submit to you, as well, and 
I will see that you get a copy of this USA Today editorial, 
because it is an opinion without, I think, an axe to grind, and 
I think it is worth doing.
    I would ask another question. The NTSB will make safety 
recommendations to government and to the transportation 
industry from time to time. And yesterday, the Commerce 
Committee, this Committee, held a timely and interesting 
hearing on the safety of sport utility vehicles. Now, from what 
I understand, NTSB generally does not investigate single auto 
accidents unless it involves many cars, they do not investigate 
the individual case. And if there are multi-car and truck 
pileups that occur infrequently, I think that comes to the 
attention of the NTSB.
    To your knowledge--again, I address the three of you--has 
the NTSB ever made any safety recommendations regarding SUVs? 
We talked about the rollover problem that seems to have emerged 
as an ominous result of the enthusiasm and the design of the 
vehicles. SUVs have a higher center of gravity and they 
sometimes tip over highway guard rails. Has the NTSB, to your 
knowledge--and I would be satisfied, Ms. Engleman, if you 
answered the question, because if it is in the record, it is in 
the record; and if not, why we can dismiss it at this point--to 
know whether the NTSB has ever looked at this problem?
    Ms. Engleman. It is my understanding, sir, that there has 
been no formal investigation. However, I believe this issue 
falls under a general category of safety that, of course, they 
would be reviewing, much as the use of cell phones in passenger 
vehicles is under constant review by the NTSB without a formal 
investigation at this time.
    Senator Lautenberg. So we can expect to hear something 
about that in the future, would you think?
    Ms. Engleman. Sir, I think that the body of knowledge that 
the NTSB has grown over 35 years is constantly growing, and I 
believe that this issue is one which would probably fall under 
the purview of awareness. I cannot say, as far as formal review 
at this time.
    Senator Lautenberg. OK, we will visit the subject at 
another time. I thank you.
    Thanks, Mr. Chairman.
    The Chairman. Senator Sununu.
    Senator Sununu. Thank you, Mr. Chairman. I do not have any 
questions.
    I certainly wish the nominees well. Their record of 
experience is really extraordinary. It is reassuring to have 
people with such valuable experience being willing to put 
themselves in a position of exposure in public service. But the 
work that you are going to be doing is extremely important. And 
among the challenges is the fact that it is also something that 
is very near and dear to everyone's heart.
    I mean, we all--we travel every day. We see the press.
    Today's media, more than ever, when there is an accident, 
when there is a tragedy, it has brought to us in a very direct 
and sometimes discomfiting way, and that makes your role and 
responsibility in helping to understand causes of accidents, 
risks, and ways to mitigate those risks all the more important 
and all the more challenging.
    So I wish you luck, and I am just pleased to see that we 
have such outstanding nominees.
    The Chairman. Well, I just want to make one additional 
comment. First of all, we will move your nominations as quickly 
as possible to the floor so you can begin working.
    I want you to remember that you emerge before the American 
people after there is a tragedy. You are the face of the 
Government of the United States. Americans rely on you in 
moments of tragedy and sorrow. I hope you understand that this 
is a very important obligation that you undertake, not only 
because of the efficiency of your work, but because of the 
image that you present to the American people during very 
difficult times.
    I want to congratulate all three of you. We will move your 
nominations as quickly as possible, as soon as we can get a 
vote on the part of the Committee. We hope you will be 
confirmed soon, so that you can get to work. Congratulations to 
your and your families.
    This hearing is adjourned.
    [Whereupon, at 10:10 a.m., the hearing was adjourned.]

                            A P P E N D I X

                Prepared Statement of Hon. John Warner, 
                       U.S. Senator from Virginia

    Chairman McCain, Senator Hollings, and my other distinguished 
colleagues on the Commerce Committee, I am pleased to introduce to you 
today Mark Rosenker, who has been nominated to serve as a member of the 
National Transportation Safety Board.
    The NTSB serves a vital function in today's nationwide 
transportation network, investigating accidents, conducting safety 
studies, and advocating policy to guard against future incidents. 
Created in 1967, this five person board has served an instrumental role 
in the safety of our aviation and surface modes of transportation.
    The President has nominated three impressive and capable 
candidates, including General Mark Rosenker. Mr. Chairman, I am pleased 
to speak on behalf of him today in support of his nomination to the 
NTSB.
    His service to our country is commendable, beginning in the United 
States Air Force in 1969 and extending through other positions at the 
Commodity Futures Trading Commission, the Department of the Interior, 
the Federal Trade Commission, and most recently serving our President 
as the Director of the White House Military Office.
    Mr. Chairman, General Rosenker's strong record of public service 
will provide the traveling public well in his new role at the NTSB. In 
addition, the perspective he brings from his other ventures in the 
private sector with the Electronic Industries Alliance and the United 
Network for Organ Sharing will provide a well balanced view of a broad 
range of issues and aid him in the depth of work at the NTSB. He 
understands how to get things done and how to do them well.
    Clearly, General Rosenker has extensive professional experience 
that makes him highly qualified to serve as a member of the National 
Transportation Safety Board. He has dedicated a large portion of his 
career to public service, and I am thankful for his willingness to 
serve our country once again.

                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                           to Ellen Engleman

    The NTSB investigates accidents in all modes of transportation, yet 
the majority of the investigations involve aviation (114,000 out of 
124,000 since its inception in 1967). Your expertise is impressive and 
will be valuable to the Board. With respect to aviation, you will need 
to learn on the job.
    <bullet> How do you intend to make this transition and to ensure 
that aviation and other modes receive appropriate levels of attention?
    Response: If confirmed, I will be fortunate to have the privilege 
to serve with the outstanding career staff who are experts in their 
fields at the NTSB. I will look to them to assist in my learning curve 
for aviation and other issues. I also plan on pursuing my private 
pilots license in order to self-educate on basic aviation principles 
and I hope to develop my aviation expertise via staff selections of 
political appointees at the NTSB.
    As Chair of the NTSB, you have some big shoes to fill. The NTSB has 
investigated numerous pipeline accidents.
    <bullet> Are there any outstanding significant NTSB recommendations 
that RSPA has not responded to during your tenure at RSPA?
    Response: During my tenure at RSPA, I considered all NTSB 
recommendations as significant. We had NTSB recommendations in both our 
Office of Pipeline Safety (OPS) and our Office of Hazardous Material 
Safety and have sought to aggressively resolve them all. RSPA's OPS has 
initiatives underway to address all the current NTSB recommendations. 
RSPA OPS is nearly finished on issues of general accident data, 
excavation damage data, and embrittlement of plastic pipe and operator 
qualifications. RSPA OPS has reported on progress on issues such as 
human factors risks and excess flow valves with remaining work to be 
finished. Finally OPS is working on the recent NTSB reports on the 
accidents in Bellingham, WA and Carlsbad, NM.

                                 ______
                                 
 Response to Written Questions Submitted by Hon. Ernest F. Hollings to 
                             Ellen Engleman

    The NTSB is recognized as one of the world's premier independent 
accident investigation agencies.
    <bullet> What steps will you take to continue the tradition of 
impartiality and expertise that has been accumulated in more than three 
decades of accident investigation?
    Response: I believe that the NTSIB's greatest asset is the 
expertise of its professional staff. To maintain the tradition of 
impartiality and expertise of the agency, it is important to continue 
to develop this human capital through training, professional education 
and other support. This also includes succession planning for the 
retirement eligible professionals, recruitment of the next generation 
of safety experts and additional outreach to professional 
opportunities. Lastly the NTSB Safety Academy will be an excellent tool 
to support employee training and development a well as utilize the 
NTSB's expertise to promote external education of stakeholders, local 
and state partners, industry and employees.
    NTSB will need to be reauthorized during the 108th Congress. We 
held hearings on this last year, and passed legislation in the Senate 
that would have funded the NTSB at levels requested by the 
Administration.
    <bullet> Do you think that NTSB is adequately funded and staffed, 
or should this be revisited?
    Response. It is my understanding that the NTSB currently is 
understaffed due to budgetary restrictions as its current budget will 
not allow it to hire its authorized level of full time employees. 
Additionally, as in all government agencies, there is a high percentage 
of retirement eligible employees at the NTSB. Planning must be 
addressed for their replacement. Lastly, continued professional 
training is essential to ensure that the expertise at the NTSB remains 
in alignment with state of the art technological advancements. This 
being said, additional resources may address these issues on the 
presumption that the NTSB is currently operating at the highest level 
of budgetary efficiency. If not, then it is imperative that the NTSB 
utilize every single dollars wisely and well before it asks for 
additional resources.
    <bullet> Under your leadership what changes if any would you like 
to see occur at the NTSB?
    Response. If I am confirmed to serve as Chairman of the NTSB, my 
leadership vision would incorporate the following key elements:
    <bullet> Create the vision and offer the leadership to support a 
mission of worldclass performance at NTSB;
    <bullet> Ensure that safety issues work together, and not in 
competition, with security in support of the needs of the nation;
    <bullet> Ensure that the President's Management Initiatives ``Going 
for Green'' are actively implemented within the management of the NTSB 
for a fiscally responsible and efficient agency;
    <bullet> ``Clean up the Record'' and seek resolution of any open 
NTSB recommendations that have languished within the Department of 
Transportation or other agencies;
    <bullet> Further develop partnerships with the state and local 
governments and first responders for training, education and outreach 
activities; and
    <bullet> Support the NTSB Academy and its curriculum and outreach.
    <bullet> Under your leadership what safety improvements would you 
like to see adopted by the aviation industry?
    Response. Commercial aviation has many safety challenges, which 
include but are not limited to issues involving human performance, 
runway incursion, loss of aircraft control and aging infrastructure. As 
many recent major accidents have been the result of disparate causes, 
the NTSB must continue to develop information databases of accident 
causation, expand its understanding of systems integration, and 
continue research into human factors. Accidents are rarely the result 
of a single factor. As such, the complexity of aviation technologies 
challenge today's investigator. The NTSB must be supportive of 
proactive FAA and industry safety data/information initiatives and 
maximize the benefits received from these information driven systems. 
The Board must also continue to strongly support education, training 
and awareness efforts in maintenance areas and other operational areas.

                                 ______
                                 
Response to Written Questions Submitted by Hon. Ernest F. Hollings and 
             Hon. John D. Rockefeller IV to Richard Healing

Senator Hollings:
    You are aware that as a NTSB Member, part of your responsibilities 
will be to interface with the press at the accident scene, and respond 
to any questions the press may have.
    <bullet> Because some of the information developed during the 
investigation is considered sensitive, what are your thoughts on how 
much information is released to the media and public, and what are your 
thoughts on the timing of the release of that information?
    Response: The NTSB's expert staff of Investigators In Charge (IICs) 
has the skill, knowledge and experience, as well as the responsibility, 
to decide how much and when information is releasable to the media or 
others, such as families of victims. When a Board Member is present at 
an accident site, his/her role is to ensure that families' needs are 
properly attended to, and to act as the ``public face of the NTSB and 
the government''--the intermediary between the investigative team and 
the public/media.
    <bullet> Do you think that there should be some controls placed on 
the types of information developed during the course of an 
investigation? When do you think it is appropriate for the NTSB to 
start talking about accident cause?
    Response: I believe there are adequate policies and laws in place 
to ensure that investigators can pursue all the necessary avenues of 
information to determine accident causal factors. For several reasons, 
including preserving the credibility of the NTSB as the world's most 
respected transportation accident investigative body, it is extremely 
important to avoid public speculation about accident causal factors. 
The only appropriate time for a Board Member to discuss accident cause 
in public is at the formal NTSB Hearing concerning the specific 
accident, when the Board deliberates the findings and recommendations 
of the investigative staff.
Senator Rockefeller:
    As I pointed out in my statement, you will have huge 
responsibilities as Members of the NTSB.
    <bullet> How do each of you see your role in improving safety and 
what will be your top priorities?
    Response: My personal role in improving safety is to bring a strong 
scientific and engineering background and extensive experience in 
operational safety to the Board's deliberations concerning accident 
causes. In concert with the skills and knowledge of other Board Members 
and NTSB staff, I believe I will add value to the determination of 
causal factors and of appropriate remedial activity designed to prevent 
similar accidents, and reduce the potential injury or loss of life in 
transportation accidents of any type. My top priority will be to do 
everything within my power to ensure that the Board's mission is 
executed in such a way that the NTSB's reputation as the world's best 
accident investigation organization is preserved or enhanced. 
Additionally, I am personally interested in working to ensure (a) 
technological currency of the professional staff, (b) growth and 
effectiveness of the NTSB Academy, (c) improving the value and 
efficiency of transportation safety data systems, (d) resolution of all 
outstanding safety recommendations in all modes, and (e) improvement of 
my personal knowledge in all transportation modes. While I will not 
focus on any single mode as a ``Top Priority'', I would like very much 
to have a measurable role in reducing the major tragedy that occurs 
annually on our highways.

                                 ______
                                 
 Response to Written Questions Submitted by Hon. Ernest F. Hollings to 
                            Mark V. Rosenker

    Questions for Mr. Rosenker: You are aware that as a NTSB Member, 
part of your responsibilities will be to interface with the press at 
the accident scene, and respond to any questions the press my have.
    <bullet> Because some of the information developed during the 
investigation is considered ``sensitive'', what are your thoughts on 
how much information is released to the media and public, and what are 
your thoughts on the timing of the release of that information?
    Response. I believe dealing with the press at an accident scene is 
one of the most crucial aspects of a Board Member's job. While on 
scene, the Member is always the official voice of the investigation and 
its progress. With that being said, the Member must never speculate on 
cause nor offer personal opinion. All of the information which is to be 
released, I believe, should be coordinated with the on scene technical 
experts before providing it to the media. I personally believe, having 
served more than 30 years as an Air Force Public Affairs officer and 
having been the spokesman for a number of accidents and incidents, that 
it is extremely important to be honest, forthright and timely in 
responding to the ``public's right to know'', still recognizing there 
will be some information which might not be suitable for release until 
later in the investigative process.
    Today, more than ever, I believe the American people are demanding 
and deserve answers in a more timely fashion given their justifiable 
concern over potential terrorist attack. In three recent highly visible 
accidents, American 587, Columbia Shuttle and the Staten Island Barge 
fire, the timely assessment and announcement by NTSB and other 
responsible authorities, that although a cause was yet to be 
determined, terrorism appeared not to be a factor in these 
catastrophes, did much to relieve some of the public's fear and anxiety 
over these tragic events.
    <bullet> Do you think that there should be some controls on the 
types of information developed during the course of an investigation? 
When do you think it is appropriate for the NTSB to start talking about 
accident ``cause''?
    Response: I am a firm believer that accident information must be 
useful, technically accurate and suitable for public release. Controls 
on information to be released, in my judgment, should be made by the 
team onsite. However, that is not to say that this information might 
not later be released in the final report. As far as NTSB discussing 
the accident cause, I believe it is best to announce preliminary 
findings as soon as practicable, meaning as soon as there is enough 
evidence to determine the probable cause.
    Question for Mr. Rosenker: As I pointed out in my statement, you 
will have huge responsibilities as a Member of the NTSB.
    <bullet> How do you see your role in improving safety and what will 
be your top priorities?
    Response. Beyond the statutory requirements of the five Member 
Board and individual Members, I see my role, if confirmed, as a being a 
relentless, tenacious advocate for transportation safety issues and to 
work closely with the Board's broad stakeholder base in making sure 
they understand and support the Board's efforts and products. As a 
Member of the NTSB, I believe I am in a unique position to use the 
Board's authoritative reputation as a bully pulpit in enhancing safety 
in all of the modes of transportation under its scope.
    I am particularly focused, as my top priorities, on implementing 
the Board's ``Most Wanted List'' during my tenure as 'a Member. This 
list encompasses twelve recommendations with the greatest impact, in 
the Board's opinion, on transportation safety. Recommendations selected 
for this list receive more intensive follow-up activity and media 
attention in order to persuade government agencies and industry to act 
on them as quickly as possible.

[GRAPHIC] [TIFF OMITTED] T1362.001

[GRAPHIC] [TIFF OMITTED] T1362.002


</pre></body></html>
